App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEAL
FOR THE NINTH CIRCUIT
KENNETH RAWSON,
an individual,
Plaintiff-Appellant,
v.

No. 19-35520
D.C. No.
3:17-cv-05342-BHS
OPINION

RECOVERY INNOVATIONS,
INC., a corporation; SAMI
FRENCH, an individual;
JENNIFER CLINGENPEEL,
an individual; VASANT
HALARNAKAR, M.D.,
an individual,
Defendants-Appellees.
Appeal from the United States District Court
for the Western District of Washington
Benjamin H. Settle, District Judge, Presiding
Argued and Submitted July 8, 2020
Seattle, Washington
Filed September 9, 2020
Before: RICHARD R. CLIFTON, D. MICHAEL
FISHER,* AND MILAN D. SMITH, JR., Circuit Judges.
Opinion by Judge Milan D. Smith, Jr.
* The Honorable D. Michael Fisher, United States Circuit
Judge for the U.S. Court of Appeals for the Third Circuit, sitting
by designation.

App. 2

COUNSEL
Timothy K. Ford (argued) and Jesse Wing, MacDonald
Hoague & Bayless, Seattle, Washington; Sam Kramer,
Madia Law LLC, Minneapolis, Minnesota; for PlaintiffAppellant.
Benjamin R. Justus (argued) and Lory R. Lybeck,
Lybeck Pedreira & Justus PLLC, Mercer Island, Washington, for Defendants-Appellees.
OPINION
M. SMITH, Circuit Judge:
Kenneth Rawson appeals the district court’s dismissal of his 42 U.S.C. § 1983 claims against Recovery
Innovations, Inc. (RII) and its current and former employees Dr. Vasant Halarnakar, Advanced Registered
Nurse Practitioner Jennifer Clingenpeel, and Mental
Health Professional Sami French (collectively, Defendants). Rawson alleges that Defendants violated his
Fourth and Fourteenth Amendment rights by wrongfully detaining him, forcibly injecting him with antipsychotic medications, and misleading a court into
extending his period of involuntary commitment for a
total of 55 days. On summary judgment, the district
court dismissed Rawson’s claims because it concluded
that Defendants did not act under color of state law.
We conclude to the contrary, and therefore reverse.

App. 3
Facts and Prior Proceedings
On March 4, 2015, Rawson allegedly made comments about automatic weapons and mass murder to
a bank teller in Clark County, Washington. When Rawson re-entered the same bank the next day, the bank
employees called the sheriffs. Upon their arrival, the
sheriffs immediately detained Rawson, who did not
physically resist but yelled that he had a gun and that
his rights were being violated. Rawson had a valid concealed carry permit and was a veteran; the sheriffs
conﬁscated and unloaded Rawson’s handgun without
incident. After Rawson allegedly made statements to
the sheriffs about “how people are against him,” the
sheriffs took Rawson into protective custody, placed him
on a mental hold, and transported him by ambulance
to a general hospital. The sheriffs’ actions triggered a
series of events generally governed by Washington’s
Involuntary Treatment Act (ITA), Wash. Rev. Code
(RCW) Ch. 71.05. See RCW § 71.05.153(2)–(3).1
At the hospital, a Clark County Designated Mental Health Professional (DMHP) evaluated Rawson
and ﬁled a petition in state court for a 72-hour involuntary commitment. See RCW §§ 71.05.153(4), .020(11).
The DMHP arranged for Rawson to be taken to RII’s
Lakewood facility in neighboring Pierce County.2 RII is
1

Unless otherwise noted, citations herein to RCW Ch. 71.05
are to the 2014 edition in effect at the time of Rawson’s commitment.
2
The following year, the Washington Court of Appeals concluded that Rawson’s detention had been improper because the
DMHP did not consult with an examining physician before

App. 4
a private nonproﬁt corporation. It leases its Lakewood
evaluation and treatment facility from the State of
Washington on the grounds of one of the State’s main
psychiatric hospitals, Western State Hospital. RII’s
Medical Director at Lakewood, Dr. Halarnakar, is a
full-time physician at Western State Hospital.
Once at RII, Rawson was evaluated by Clingenpeel and French, who prescribed medication and
completed a petition for an additional 14 days of intensive treatment, certifying that Rawson was both
“gravely disabled” and “presents a likelihood of serious
harm to others.” See RCW §§ 71.05.170, .210, .230.
They based these conclusions on their evaluations of
Rawson and information in the police report. The petition also stated that Rawson “den[ied] [having] any
problem other than the bank and police misunderstanding.” The court held a probable cause hearing and
granted the 14-day petition on March 10.
During the 14-day commitment, Dr. Halarnakar
met with Rawson. Dr. Halarnakar’s notes indicate that
Rawson was calm, cooperative, and polite, but had
pressured speech. Though Rawson reported no symptoms of schizophrenia, Dr. Halarnakar wrote that Rawson needed to keep taking his medication. In his second
evaluation of Rawson, Dr. Halarnakar documented
only that Rawson was argumentative and denied having a mental illness, denied needing antipsychotic
medications, and denied having suicidal or homicidal
initiating commitment. In re Det. of K.R., 381 P.3d 158, 159
(Wash. Ct. App. 2016).

App. 5
ideations. Dr. Halarnakar nevertheless concluded that
Rawson was paranoid, had no insight, and needed further treatment.
Dr. Halarnakar and French then petitioned for an
additional 90-day commitment, alleging that Rawson
had “threatened, attempted, or inflicted physical harm”
upon a person or property “during the period in custody.” See RCW §§ 71.05.230(8), .290. They recommended
that the court involuntarily commit Rawson to Western State Hospital. In response to a later request for
the speciﬁc statements that were threatening, French
conceded Rawson had made no “threatening statements.”
Rawson exercised his right to request a jury trial,
which was continued multiple times while he remained
involuntarily committed at RII. See RCW § 71.05.300.
In preparation for the trial, Dr. Halarnakar and French
communicated extensively with the Pierce County Deputy Prosecuting Attorney regarding discharge possibilities, current treatment methods, the strength of the
evidence against Rawson, and the theory to argue to
the jury. See RCW § 71.05.130. Meanwhile, a court-appointed expert psychiatrist evaluated Rawson and concluded that he was not dangerous, his frustrations
were not unreasonable, and he had no symptoms related to psychosis or a mood disorder.
On April 29, almost two months after Rawson’s
arrival, RH ﬁnally released Rawson pursuant to an
attorney-negotiated agreement. Rawson later brought

App. 6
this § 1983 action against RH and many of the individuals involved in his commitment.
On summary judgment, the district court dismissed Rawson’s claims against Defendants based on
the conclusion that they were not acting under color of
state law. The court found that the “public function”
test was not satisﬁed because Rawson did not establish
“that involuntary commitments are both traditionally
and exclusively governmental.” The court found that
the “joint action” / “close nexus” test was not satisﬁed
because Rawson did not establish “government involvement sufﬁcient to override the purely medical
judgment of the private individual.”
Rawson timely appealed.
Jurisdiction and Standard of Review
We have jurisdiction pursuant to 28 U.S.C. § 1291.
We review a grant of summary judgment de novo, construing the evidence in the light most favorable to the
non-moving party. Anderson v. Warner, 451 F.3d 1063,
1067 (9th Cir. 2006) (citing Celotex Corp. v. Catrett, 477
U.S. 317, 322 (1986)). “[W]e must determine whether
there are any genuine issues of material fact and
whether the district court correctly applied the relevant substantive law.” Id.

App. 7
Analysis
I.
Pursuant to § 1983, a defendant may be liable
for violating a plaintiff ’s constitutional rights only if
the defendant committed the alleged deprivation while
acting under color of state law. See Jensen v. Lane Cty.,
222 F.3d 570, 574 (9th Cir. 2000). Similarly, a violation
of the plaintiff ’s constitutional rights cognizable under
the Fourteenth Amendment can occur only by way of
state action. Id. Thus, the color of law and state action
inquiries are the same. Id.
Before we can answer the question of whether Defendants acted under color of law, we must identify the
“speciﬁc conduct of which the plaintiff complains.”
Caviness v. Horizon Cmty. Learning Ctr., Inc., 590 F.3d
806, 812 (9th Cir. 2010) (quoting Am. Mfrs. Mut. Ins.
Co. v. Sullivan, 526 U.S. 40, 51 (1999)). Here, Rawson
seeks to hold Defendants liable for certain actions relating to the 14-day and 90-day petitions, as well as
his detention and forcible medication pursuant to
the authority provided by those petitions. The specific alleged conduct Rawson challenges includes involuntarily committing him without legal justiﬁcation,
knowingly providing false information to the court,
and forcibly injecting him with antipsychotic medications without his consent.3 The relevant inquiry is
3

Rawson does not seek to hold Defendants liable for their
actions relating to his initial 72-hour commitment for evaluation.
Thus, neither Defendants’ acceptance of Rawson from the County
DMHP, their detention of Rawson for the initial 72 hours, nor
their treatment of Rawson during that time, are at issue.

App. 8
therefore whether Defendants’ role as custodians, as
litigants, or as medical professionals constituted state
action. See id.
II.
The determination of whether a nominally private
person or corporation acts under color of state law “is
a matter of normative judgment, and the criteria lack
rigid simplicity.” Brentwood Acad. v. Tenn. Secondary
Sch. Athletic Ass’n, 531 U.S. 288, 295-96 (2001). “[N]o
one fact can function as a necessary condition across
the board for ﬁnding state action; nor is any set of circumstances absolutely sufﬁcient, for there may be
some countervailing reason against attributing activity to the government.” Id.
We have recognized at least four different general tests that may aid us in identifying state action:
“(1) public function; (2) joint action; (3) governmental
compulsion or coercion; and (4) governmental nexus.”
Kirtley v. Rainey, 326 F.3d 1088, 1092 (9th Cir. 2003)
(citation omitted). “Satisfaction of any one test is sufﬁcient to ﬁnd state action, so long as no countervailing
factor exists.” Id. “Whether these different tests are actually different in operation or simply different ways
of characterizing the necessarily fact-bound inquiry
that confronts the Court in such a situation need not
be resolved here.” Lugar v. Edmondson Oil Co., Inc.,
457 U.S. 922, 939 (1982).
“The public function test is satisﬁed only on a
showing that the function at issue is ‘both traditionally

App. 9
and exclusively governmental.” Kirtley, 326 F.3d at
1093 (quoting Lee v. Katz, 276 F.3d 550, 555 (9th Cir.
2002)). The close nexus and joint action tests may be
satisﬁed where the court ﬁnds “a sufﬁciently close
nexus between the state and the private actor ‘so that
the action of the latter may be fairly treated as that of
the State itself,’ or where the State has “so far insinuated into a position of interdependence with the [private party] that it was a joint participant in the
enterprise.” Jensen, 222 F.3d at 575-58 (quoting Jackson v. Metro. Edison Co., 419 U.S. 345, 350, 357-58
(1974)). Governmental compulsion or coercion may exist where the State “has exercised coercive power or
has provided such signiﬁcant encouragement, either
overt or covert, that the choice must in law be deemed
to be that of the State.” Blum v. Yaretsky, 457 U.S. 991,
1004 (1982).
At bottom, the inquiry is always whether the defendant has “exercised power ‘possessed by virtue of
state law and made possible only because the wrongdoer is clothed with the authority of state law.’ West v.
Atkins, 487 U.S. 42, 49 (1988) (quoting United States v.
Classic, 313 U.S. 299, 326 (1941)).
III.
Before we proceed with our full analysis, it is
appropriate to explain why we do not apply the color
of law test as articulated by the district court. The
district court analyzed the issue before us under a species of the close nexus/joint action test purportedly

App. 10
applicable speciﬁcally to medical professionals. Derived from language in Jensen, 222 F.3d at 575, the district court’s test asked whether state actors overrode
the independent professional medical judgment of the
Defendants. The district court analyzed the communications between Defendants and the County prosecutor and concluded that none of the prosecutor’s
statements were the cause of any decisions made by
Defendants relating to treatment or detention. Accordingly, the district court concluded that the prosecutor
did not override the Defendants’ medical judgment,
and that Defendants therefore did not act under color
of state law.
A.
The origins of the district court’s analysis lie in the
Supreme Court’s decision in Blum v. Yaretsky, 457 U.S.
991 (1982). In Blum, the Supreme Court held that
state Medicaid administrators were not liable under
§ 1983 for decisions made by privately owned and operated nursing homes to discharge Medicaid patients
without notice or hearing. Id. at 993,1003. The Court
noted that the case before it was “obviously different”
from cases where (as in our case) the defendant is the
nominally private party, but found that such cases
nevertheless “shed light upon the analysis necessary
to resolve the present case.” Id. at 1003-04. The Court
interpreted such cases as “assur[ing] that constitutional standards are invoked only when it can be said
that the State is responsible for the speciﬁc conduct of
which the plaintiff complains.” Id. at 1004.

App. 11
The Court concluded that the state Medicaid administrators were not “responsible” for the nursing
homes’ discharge decisions. Id. at 1005.4 While the
state administrators responded to the discharges by
adjusting Medicaid beneﬁts, the discharge decisions
themselves were made by the physicians and nursing
home administrators alone. Id. There was “no suggestion that those decisions were inﬂuenced in any degree
by the State’s obligation to adjust beneﬁts.” Id. The
Court rejected the argument that the State’s requirement that nursing homes ﬁll out placement forms
should change its analysis. Id. at 1008. The relevant
regulations did “not require the nursing homes to rely
on the forms” in making discharge decisions. Id. Rather, the discharge decisions “ultimately turn[ed] on
medical judgments made by private parties according
to professional standards that are not established by
the State.” Id. The Court noted that if it had been the
case that the state “afﬁrmatively commands” the summary discharge or transfer of Medicaid patients who
are thought to be inappropriately placed in the nursing
facilities, “we would have a different question before
us.” Id. at 1005.
A few years later, the Court clarified the reach
of Blum’s professional judgment analysis in West v.
Atkins, 487 U.S. 42 (1988). West involved a private
contract physician rendering treatment services for
4

The Court held that state subsidization of a private facility
is insufﬁcient to convert that facility’s actions into state action,
even though in this case Medicaid was paying the expenses of
more than 90% of the patients. Id. at 1011.

App. 12
inmates at a state prison, whom the Court ultimately
concluded was acting under color of state law. Id. at 43,
57. Reviewing a Fourth Circuit decision that had concluded that the physician did not act under color of
state law because he applied his independent professional medical judgment, the Court clariﬁed that ‘the
exercise of . . . independent professional judgment,’ is
not, as the Court of Appeals suggested, ‘the primary
test.’ ” Id. at 52 n.10 (alteration, internal quotation
marks, and citation omitted); see also id. at 52 (“Defendants are not removed from the purview of § 1983
simply because they are professionals acting in accordance with professional discretion and judgment.”). Instead, the Court looked to factors such as the State’s
constitutional duty to provide adequate medical care
to those it has incarcerated, id. at 54, the physician’s
reliance on state authority to treat the plaintiff, id. at
55, the necessity of the physician cooperating with
prison management, id. at 51, and the inability of the
incarcerated plaintiff to access other medical care of
his own choosing, id. at 55. The Court concluded that
neither Blum, nor the then-recent decision in RendellBaker v. Kohn,5 dictated that a physician who otherwise should be found to be acting under color of state
law “does not act under color of state law merely because he renders medical care in accordance with professional obligations.” Id. at 52 n.10.

5

457 U.S. 830 (1982). In Rendell-Baker, the Court concluded
that the discharge decisions of a privately owned and operated
school for maladjusted high school students were not state action.
Id. at 842.

App. 13
We previously considered the application of Blum
in the context of involuntary civil commitment in Jensen v. Lane County, 222 F.3d 570 (9th Cir. 2000). Jensen
concerned a private contract psychiatrist in Oregon
who participated in the initial emergency detention of
the plaintiff for mental health evaluation, and whom
we ultimately concluded was acting under color of
state law under the close nexus/joint action test. Id. at
575-76. The plaintiff ’s detention had been initiated by
police and was ﬁrst reviewed by a county mental
health specialist, who forwarded the case to the defendant contract psychiatrist (Dr. Robbins) and a second county mental health specialist. Id. at 572-73.
Without personally examining the plaintiff, Dr. Robbins signed an order authorizing up to ﬁve days of detention for evaluation. Id. at 573. The plaintiff would
be held at the county psychiatric hospital, for which Dr.
Robbins’ private practice group helped develop the
mental health policies. Id. at 573, 575. Based on his
subsequent personal examinations, Dr. Robbins would
have released the plaintiff by day three. Id. at 573.
However, the plaintiff was held the maximum ﬁve days
until the second county mental health specialist completed his investigation and concluded that there was
insufﬁcient evidence upon which to pursue further detention. Id.
We found Blum to be “instructive in this case, but
not controlling.” Id. at 575. We acknowledged that in
Dr. Robbins’ circumstances, “by contract and in practice,” the committing physician must exercise “medical
judgment.” Id. However, we concluded that “[t]he real

App. 14
issue here is whether the state’s involvement in the decision-making process rises to a level that overrides
the ‘purely medical judgment’ rationale of Blum.” Id.
We concluded that “[t]he record is clear that Dr. Robbins and the County through its employees have undertaken a complex and deeply intertwined process of
evaluating and detaining individuals who are believed
to be mentally ill and a danger to themselves or others.” Id. We thus concluded that “the state has so
deeply insinuated itself into this process” that “Dr.
Robbins’ conduct constituted state action” under the
close nexus/joint action test. Id. at 575-76. The fact that
Dr. Robbins may have applied his independent medical
judgment to any particular decision did not insulate
him from a ﬁnding of state action.
B.
The district court here applied a speciﬁc interpretation of our Jensen opinion articulated by another district court in Hood v. King Cty., No. C15-828RSL, 2017
WL 979024 (W.D. Wash. Mar. 14, 2017), aff ’d sub nom.
Hood v. Cty. of King, 743 F. App’x 79 (9th Cir. 2018).
As here, Hood involved nominally private institutions involved in the involuntary commitment process
pursuant to Washington’s ITA.6 The district court in
Hood interpreted Jensen as premised on the conclusion
that “the state’s involvement in the decision-making
6

However, Hood concerned actions taken during an initial
72-hour commitment for emergency evaluation, which distinguishes it from the case before us. See 2017 WL 979024, at *3.

App. 15
process overrode the private provider’s purely medical
judgment.’ ” Id. at *12 (emphasis added). The court
concluded that “[t]he facts here reveal sustained and
routine cooperation between King County and the hospitals, but they do not show that the county’s involvement overrode the hospital staff ’s medical judgment
such that the hospitals’ actions can fairly be treated as
those of the government.” Id. at *13.7
The parties dispute whether Hood’s test is a fair
interpretation of Jensen or Blum. We observe ﬁrst that
neither Jensen nor Blum suggested that the exercise of
independent medical judgment is dispositive of the
color of state law inquiry. Both cases undertook a close,
fact-intensive analysis in which the exercise of professional judgment was only one factor. This approach
was consistent with Supreme Court precedents telling
us that the color of state law “criteria lack rigid simplicity,” and “no one fact can function as a necessary
condition across the board.” Brentwood Acad., 531 U.S.
at 295-96. Moreover, West held that ‘the exercise of
. . . independent professional judgment,’ is not . . . ‘the
7

We afﬁrmed Hood in an unpublished memorandum disposition, but we did not expressly endorse the district court’s “overrode the . . . medical judgment” test. 2017 WL 979024 at *12; see
743 F. App’x at 81. We agreed with the district court that the private hospital’s employees had “evaluated Hood and developed a
course of action based on their ‘medical judgments’ and ‘according
to professional standards,’ ” id. (quoting Blum, 457 U.S. at 1008),
but we also relied more generally on Jensen’s language that the
defendant and the county had engaged in a “complex and deeply
intertwined process of evaluating and detaining individuals,” id.
(quoting Jensen, 222 F.3d at 575), which we found lacking in
Hood.

App. 16
primary test.’ ” 487 U.S. at 52 n.10 (alteration and citation omitted).
Additionally, we did not actually ask in Jensen
whether state actors “overrode” the defendant’s
“purely medical judgment.” Our exact language was:
“The real issue here is whether the state’s involvement
in the decision-making process rises to a level that
overrides the ‘purely medical judgment’ rationale of
Blum.” Jensen, 222 F.3d at 575 (emphasis added). Essentially, our question was whether the state’s involvement in the conduct at issue provided sufﬁcient reason
to ﬁnd state action, notwithstanding the “countervailing reason” of some purely medical judgment. Brentwood Acad., 531 U.S. at 295-96.
A ﬁnding that individual state actors or other
state requirements literally “overrode” a nominally
private defendant’s independent judgment might very
well provide relevant information. But it is a mistake
to focus too narrowly on this question.
IV.
With the foregoing clariﬁcation, we consider the
full factual context of this case, paying particular attention to the facts that played a material role in previous decisions. We conclude that the facts in this case
show that the Defendants acted under color of state
law.8
8

Rawson argues that Defendants acted under color of law
under the “public function” test, contending that the relevant

App. 17
A.
The Supreme Court has recognized that private
parties may act under color of state law when they exercise powers traditionally held by the state. As noted
above, the Supreme Court in West v. Atkins, 487 U.S.
42 (1988) held that a private contract physician rendering treatment services for prisoners at a state
prison acted under color of law. Id. at 57. Part of the
Court’s reasoning was that any deprivation effected by
the private contract physician would be necessarily
“caused, in the sense relevant for state-action inquiry,
by the State’s exercise of its right to punish [the plaintiff ] by incarceration and to deny him a venue independent of the State to obtain needed medical care.” Id.
at 55.

provisions of the Washington Code of 1881 and 1915 demonstrate
that involuntary commitment was an exclusively governmental
function in Washington prior to the passage of the ITA in 1973.
“While many functions have been traditionally performed by governments, very few have been ‘exclusively reserved to the State.’ ”
Flagg Bros., 436 U.S. at 158 (quoting Jackson, 419 U.S. at 352).
We have not previously addressed whether nominally private
medical professionals involved in longer term, court-ordered involuntary commitment perform a public function, either in general terms or speciﬁcally in the State of Washington. See Jensen,
222 F.3d at 574-75 (discussing courts’ application of the public
function test to the initial phase of committing someone for
no more than a few days for emergency evaluation) (citing Doe
v. Rosenberg, 996 F. Supp. 343, 349 (S.D.N.Y. 1998) (collecting
cases)). However, given that the historical evidence was not directly evaluated by the district court, and that the remainder of
our analysis is sufﬁcient to support a judgment in Rawson’s favor,
we decline to resolve the historical exclusivity question.

App. 18
As in West, any deprivation effected by Defendants
here was in some sense caused by the State’s exercise
of its right, pursuant to both its police powers and
parens patriae powers, to deprive Rawson of his liberty
for an extended period of involuntary civil commitment. See RCW § 71.05.010 (2020) (“The provisions of
this chapter . . . are intended by the legislature . . . [t]o
protect the health and safety of persons suffering
from behavioral health disorders and to protect public safety through use of the parens patriae and police
powers of the state.”); Addington v. Texas, 441 U.S. 418,
426 (1979) (“The state has a legitimate interest under
its parens patriae powers in providing care to its citizens who are unable because of emotional disorders to
care for themselves; the state also has authority under
its police power to protect the community from the
dangerous tendencies of some who are mentally ill.”).9
In that sense, Defendants were “clothed with the
authority of state law” when they detained and forcibly treated Rawson beyond the initial 72-hour emergency evaluation period. West, 487 U.S. at 49 (quoting
Classic, 313 U.S. at 326). Thus, under West, if Defendants “misused [their] power by demonstrating
deliberate indifference to” Rawson’s rights to liberty,
refusal of treatment, and/or due process, “the resultant
9

See also Beltran-Serrano v. City of Tacoma, 442 P.3d 608,
614 n.9 (Wash. 2019) (referring to the “detention of a person suffering from mental illness” as a “law enforcement related activit[y]”); Developments in the Law, Civil Commitment of the
Mentally Ill, 87 Harv. L. Rev. 1190, 1207-12, 1222-23 (1974) (describing the origins of the parens patriae and police powers relating to the mentally ill).

App. 19
deprivation was caused, in the sense relevant for stateaction inquiry, by the State’s exercise of its right to”
civilly commit Rawson for purposes of protecting both
the public and Rawson himself. Id. at 55.10 These facts,
in light of West, weigh in favor of ﬁnding that Defendants acted under color of state law.
B.
The Supreme Court has also held that private parties may act under color of state law when they perform actions under which the state owes constitutional
10

West did not articulate which of the four color of law
“tests,” if any, its reasoning pertained to. Cf. Lugar, 457 U.S. at
939 (observing that it remains unclear “[w]hether these different
tests are actually different”). In a now-vacated opinion, we previously assumed that West was decided under the “public function”
test. Pollard v. The GEO Grp., Inc., 629 F.3d 843, 856 (9th Cir.
2010), rev’d sub nom. Minneci v. Pollard, 565 U.S. 118 (2012).
However, that test as traditionally formulated requires close
scrutiny of historical exclusivity, see Flagg Bros. v. Brooks, 436
U.S. 149, 158 (1978), and West did not analyze historical exclusivity at all. Indeed, the Court later observed that private contractors “were heavily involved in prison management during the
19th century.” Richardson v. McKnight, 521 U.S. 399, 405 (1997).
But see Pollard, 629 F.3d at 857 (reasoning that the power of incarceration was exclusively governmental even if prison management was not). For purposes of this opinion, we ﬁnd it
unnecessary to peg West to one of our four recognized tests.
Whether understood as undertaking a “public function” analysis,
or a more open-ended “close nexus” inquiry with the greater the
role of state authority (and/or state duties, as discussed in the
subsequent subsection), the greater the nexus with the State, subject to countervailing considerations, see Brentwood Acad., 531
U.S. at 29596, West unquestionably supports a ﬁnding of state action here.

App. 20
obligations to those affected. The Court reasoned in
West that the State has an Eighth Amendment obligation “to provide adequate medical care to those whom
it has incarcerated,” and that the State employs private contract physicians, and relies on their professional judgment, to fulﬁll this obligation. Id. at 54–55.11
Similarly here, the State has a Fourteenth Amendment obligation toward those whom it has ordered
involuntarily committed. See Addington, 441 U.S. at
425 (“This Court repeatedly has recognized that civil
commitment for any purpose constitutes a significant deprivation of liberty that requires due process
protection.”). In the now-vacated Pollard opinion,
where we held that employees of a privately-operated
prison acted under color of state law, we rejected the
notion that “by adding an additional layer, the government can contract away its constitutional duties” by
having private actors rather than state actors perform
some of the work. See Pollard, 629 F.3d at 856 (quoting
Holly v. Scott, 434 F.3d 287, 299 n.1 (4th Cir. 2006)
11

Both Blum and Jackson also recognized the relevance of
state duties regarding the care or service at issue. In Blum, the
Court noted that although the relevant state constitutional provisions “authorize[d] the legislature to provide funds for the care
of the needy,” the state constitution did not “mandate the provision of any particular care, much less long-term nursing care.”
457 U.S. at 1011. In Jackson, the Court noted that while the state
had imposed a duty on regulated utilities to furnish service, the
state itself had no duty to furnish service. 419 U.S. at 353. In both
cases, the Court made these observations in the context of rejecting a “public function” theory of state action. In accordance with
the preceding footnote, we ﬁnd the Court’s concern with state duties relevant to the “close nexus” inquiry as well.

App. 21
(Motz, J., concurring in the judgment)). Accordingly,
the State’s particular Fourteenth Amendment duties
toward persons involuntarily committed weighs toward a ﬁnding of state action in this case.
C.
We have recognized that private parties may act
under color of state law when the state signiﬁcantly
involves itself in the private parties’ actions and decisionmaking at issue. In Jensen, the defendant private
physician was part of a team of mental health professionals that included individuals acting in their capacity as county employees. 222 F.3d at 575. That team
was jointly responsible for making the medical determinations relevant to the duration of the plaintiff ’s
emergency detention. Id. We concluded that the defendant and the county employees were together involved in a “complex and deeply intertwined process”
that satisﬁed Jackson’s standard for whether the State
has “so far insinuated into a position of interdependence with the [private party] that it was a joint participant in the enterprise.” Id. (quoting Jackson, 419 U.S.
at 357-58); see also id. (“We are convinced that the
state has so deeply insinuated itself into this process
that there is ‘a sufﬁciently close nexus between the
State and the challenged action of the [defendant] so
that the action of the latter may be fairly treated as
that of the State itself.’ ” (quoting Jackson, 419 U.S. at
350)).

App. 22
With respect to the conduct challenged here, Defendants did not work in coordination with mental
health professionals acting in their capacity as county
or state employees.12 However, mental health professionals were not the only relevant actors. Here, the
county prosecutor played an outsized role in the duration of Rawson’s detention, particularly during the
pendency of Rawson’s jury trial on the 90-day petition.
In preparation for the jury trial, Dr. Halarnakar
and French communicated extensively with the prosecutor regarding discharge possibilities, current treatment methods, the strength of the evidence against
Rawson, and the theory to argue to the jury. The evidence even suggests that the prosecutor altered Dr.
Halarnakar’s medical diagnosis—from “likelihood of
serious harm” to “gravely disabled”—after exposing
Defendants’ lack of evidence for the former and proposing the latter. Regardless of whether the prosecutor
“overrode” any particular decision Dr. Halarnakar otherwise would have made, the evidence at minimum
shows that the prosecutor was heavily involved in the
decisionmaking process regarding Rawson’s detention,
diagnosis, and treatment.
Defendants attempt to explain away their coordination with the prosecutor by arguing that the ITA
12

However, we note that RII’s medical director at Lakewood,
Dr. Halarnakar, was a full-time state employee at Western State
Hospital. The record before us does not reveal whether or the extent to which Western State Hospital, through Dr. Halarnakar,
may therefore have been involved in the administration of RII’s
Lakewood facility.

App. 23
gives them no choice. This argument is unavailing. The
ITA’ s mandate that civil commitment petitions be argued only by the county prosecutor (or state attorney
general), see RCW § 71.05.130, only strengthens the
conclusion that the State is a joint participant in this
enterprise. The ITA itself insinuates the State into the
process of involuntary civil commitment at issue here,
regardless of whether the treatment facility is nominally public or private. To conclude that Defendants
act under color of state law within this process does not
cast blame on them. It simply charges Defendants with
meeting the constitutional standards applicable to
those whose actions are “made possible only because
[they are] clothed with the authority of state law.” West,
487 U.S. at 49 (quoting Classic, 313 U.S. at 326).
Defendants also argue that the prosecutor’s role
here is analogous to the public defender in Polk County
v. Dodson, 454 U.S. 312 (1981), and therefore that the
prosecutor is not a state actor when prosecuting commitment petitions. We disagree. The prosecutor here is
not advocating for the private interests of the hospital
or mental health professionals. Neither the prosecutor’s nor Defendants’ “professional and ethical obligation[s] . . . set [them] in conﬂict with the State.” West,
487 U.S. at 51. Instead, Defendants cooperate with the
executive arm of the State to further the State’s interest in protecting both the public and the patient. See
id.
Accordingly, the role played by the county prosecutor here, in practice and by statute, supports a ﬁnding of state action by the Defendants.

App. 24
D.
The Supreme Court has also recognized that private parties may act under color of state law when the
state authorized or approved the private parties’ actions. In Jackson v. Metropolitan Edison Company, 419
U.S. 345 (1974), the Court held that a privately owned
and operated utility, despite extensive state regulation
and a state-protected monopoly, did not commit state
action when it terminated electrical service to the
plaintiff without notice or hearing. Id. at 346, 358-59.
The Court explained that extensive state regulation is
not enough to create state action, but rather that “the
inquiry must be whether there is a sufﬁciently close
nexus between the State and the challenged action of
the regulated entity so that the action of the latter may
be fairly treated as that of the State itself.” Id. at 351,
358.
The Court devoted particular attention to rejecting the argument that the State had “speciﬁcally authorized and approved” the challenged termination
practice. Id. at 354. The Court observed that while the
utility was required to ﬁle its general tariff with the
public utility commission, which included a provision
reserving the right to terminate service for nonpayment, it was unclear whether the commission actually
had the power to disapprove that provision. Id. at 355.
In addition, the tariff became effective when the commission took no action to disapprove it, rather than after a hearing and commission approval. Id. at 355, 357.
The Court distinguished Public Utilities Commission
v. Pollak, 343 U.S. 451 (1952), where the public utilities

App. 25
commission had commenced its own investigation of a
practice and given its imprimatur to the practice after
a full hearing. Jackson, 419 U.S. at 356-57. In the case
at hand, “there was no such imprimatur placed on the
practice” by the State. Id. at 357.
Here, much of the challenged activity received
clear state imprimatur. Medical providers in Washington can neither detain nor forcibly treat a mental
health patient past an initial 72-hour emergency
evaluation period without a court order. See RCW
§§ 71.05.153, .210. In contrast to the public utilities
commission in Jackson, the reviewing state court here
unquestionably has the power to disapprove a petition
for involuntary commitment and treatment. See id.
§ 71.05.237. In fact, the state court approved the 14day petition in this case.
Accordingly, the role of state authorization and approval weighs in favor of a ﬁnding of state action in
this case.
E.
The Supreme Court has also reasoned that state
action may lie in private conduct that is “afﬁrmatively
commanded” by state protocols. In Blum, for example,
the Supreme Court highlighted that if it had been the
case that the State “afﬁrmatively commands” nursing
homes to summarily discharge or transfer Medicaid
patients thought to be inappropriately placed there,
“we would have a different question before us.” 457 U.S.

App. 26
at 1005. Here, in multiple respects, we have that different question.
Defendants are charged with applying state
protocols and criteria in making evaluation and
commitment recommendations, and are “afﬁrmatively
command[ed]” by the state to render treatment without informed consent in many circumstances. Id.; see
RCW §§ 71.05.210, .214.13 These state requirements
and protocols that command private action weigh in
favor of ﬁnding that Defendants acted under color of
state law in this case.
F.
The Supreme Court has also found state action
may exist when private parties operate on public property or in public facilities. In Burton v. Wilmington
Parking Authority, 365 U.S. 715 (1961), the Supreme
Court found that a privately owned and operated restaurant that leased its premises from a municipal
parking authority committed state action when it refused service to the plaintiff because he was a “Negro.”
13

RCW § 71.05.210 provides that a detained individual “shall
receive such treatment and care as his or her condition requires,”
regardless of whether that individual consents to treatment, except in some circumstances regarding antipsychotic medications
within 24 hours of a trial or hearing. RCW § 71.05.214 provides
that “[t]he department shall develop statewide protocols to be utilized by professional persons and [DMHPs] in administration of
this chapter . . . The protocols shall provide uniform development
and application of criteria in evaluation and commitment recommendations, of persons who have, or are alleged to have, mental
disorders and are subject to this chapter.”

App. 27
Id. at 716-17. The Court noted that the parking authority provided the premises, the utilities, and the repair
work to the restaurant, as well as tax-exempt status.
Id. at 720. The Court also noted that the building was
clearly marked as a public building. Id. In addition, the
Court noted that the ﬁnancial success of the restaurant, which was purportedly enhanced by segregation,
was essential to the ﬁnancing of the public parking
structure. Id. at 723-24.
The Court concluded that, by its “inaction” of failing to require nondiscriminatory service as a term of
the lease, the parking authority had “not only made
itself a party to the refusal of service, but ha[d]
elected to place its power, property and prestige behind the admitted discrimination.” Id. at 725. The
parking authority, “and through it the State,” had “so
far insinuated itself into a position of interdependence” with the restaurant that the restaurant’s discrimination constituted state action under a “joint
participant” theory. Id. Highlighting the factually
bound nature of its decision, the Court limited its holding to cases where “a State leases public property in
the manner and for the purpose shown to have been
the case here.” Id. at 726.
This case resembles Burton in that RII was leasing its Lakewood premises from the State on the
grounds of Western State Hospital, which was not only
clearly marked as a state hospital but was also historic
and recognizable. See Burton, 365 U.S. at 726; see also
Jackson, 419 U.S. at 358 (finding that a particularly
salient aspect of Burton was that the nominally

App. 28
private defendant paid money to the State not just as
a common taxpayer, but as a “lessee[ ] of public property”). Unlike in Burton, the record here does not indicate whether Western State Hospital is in any sense
ﬁnancially dependent upon the business of RII’s Lakewood facility. See Burton, 365 U.S. at 723-24. Presumably, however, the State receives some rent from its
lessee. While it is unclear how closely the facts of a particular case must match Burton to ﬁnd state action
on that basis alone,14 Burton remains instructive and
there are enough similarities here to consider the leasing of state property as a factor weighing in favor of
ﬁnding state action.
Conclusion
Although Defendants were nominally private actors, exercised professional medical judgment, and
were not statutorily required to petition for additional

14

Some courts have described the Supreme Court’s later
American Manufacturers Mutual Insurance v. Sullivan decision
as casting doubt on Burton, noting that the Court referred to Burton as an “early” case that promulgated a “vague” standard. 526
U.S. 40, 57 (1999); see, e.g., Crissman v. Dover Downs Ent. Inc.,
289 F.3d 231 (3d Cir. 2002) (en banc) (limiting the reach of Burton
to cases that replicate Burton’s facts, rejecting broad “symbiotic
relationship” test). However, Burton remains good law, and is relevant here because RII is in fact a “lessee[ ] of public property.”
Jackson, 419 U.S. at 358.

App. 29
commitment,15 on balance, the facts weigh toward a
conclusion that they were nevertheless state actors.
As in Jensen, the State here has “undertaken a
complex and deeply intertwined process [with private
actors] of evaluating and detaining individuals” for
long-term commitments, and therefore, “the state has
so deeply insinuated itself into this process” that “[the
private actors’] conduct constituted state action.” See
Jensen, 222 F.3d at 575. Just as West found state action with private contract physicians rendering
treatment services for prisoners at a state prison, we
hold the same under the arrangement the State has
devised for involving private actors in long-term involuntary commitments. Defendants were not merely
subject to extensive regulation or subsidized by state
funds. See Blum, 457 U.S. at 1011; Jackson, 419 U.S.
at 358.
Given the necessity of state imprimatur to continue detention, the afﬁrmative statutory command to
render involuntary treatment, the reliance on the
State’s police and parens patriae powers, the applicable constitutional duties, the extensive involvement
of the county prosecutor, and the leasing of their
premises from the state hospital, we conclude that “a
sufficiently close nexus between the state and the
private actor” existed here “so that the action of the
latter may be fairly treated as that of the State itself.”
15

See Blum, 457 U.S. at 1006 (“[T]he physicians, and not the
forms, make the decision.”). However, Defendants were required
to apply state-promulgated criteria. See RCW § 71.05.214.

App. 30
See Jensen, 222 F.3d at 575 (quoting Jackson, 419 U.S.
at 350).
We therefore conclude that Defendants were acting under color of state law with respect to the actions for which Rawson attempts to hold them liable.
We reverse the district court’s grant of summary
judgment to the contrary and remand for further proceedings.
REVERSED and REMANDED.

App. 31
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
KENNETH RAWSON,

CASE NO. C17-5342 BHS

Plaintiff,

ORDER GRANTING IN
PART AND DENYING
v.
IN PART PLAINTIFF’S
RECOVERY INNOVATIONS, MOTION FOR PARTIAL
INC., et al.,
SUMMARY JUDGMENT,
GRANTING IN PART
Defendants.
AND DENYING IN PART
DEFENDANTS’ MOTION
FOR SUMMARY
JUDGMENT, STRIKING
THE PRETRIAL
CONFERENCE AND
THE TRIAL DATE, AND
REQUESTING A JOINT
STATUS REPORT
(Filed Nov. 27, 2018)
This matter comes before the Court on Defendants
Jennifer Clingenpeel (“Clingenpeel”), Sami French
(“French”), Vasant Halarnakar (“Halarnakar”), and
Recovery Innovations, Inc.’s (“RI”) (collectively “Defendants”) motion for summary judgment, Dkt. 63,
and Plaintiff Kenneth Rawson’s (“Rawson”) motion
for partial summary judgment, Dkt. 58. The Court
has considered the pleadings ﬁled in support of and
in opposition to the motions and the remainder of the
ﬁle and hereby rules as follows:

App. 32
I.

PROCEDURAL HISTORY

On May 8, 2017, Rawson ﬁled a complaint against
Defendants asserting numerous claims stemming from
his involuntary commitment and treatment by Defendants. Dkt. 1. On June 8, 2017, Rawson ﬁled an
amended complaint against Defendants asserting that
Defendants acted under color of law for purposes of 42
U.S.C. § 1983 and nine substantive claims as follows:
(1) violation of his Fourth Amendment rights, (2) violation of his substantive due process rights under the
Fourteenth Amendment, (3) violation of his procedural
due process rights under the Fourteenth Amendment,
(4) violations of the ADA, 42 U.S.C. § 12132, (5) outrage, (6) false imprisonment, (7) medical malpractice,
(8) violations of the Washington Law Against Discrimination (“WLAD”), RCW Chapter 49.60, and (9) violations of the Washington Consumer Protection Act
(“CPA”), RCW Chapter 19.86. Dkt. 5.
On July 20, 2017, Defendants ﬁled a motion to dismiss arguing that (1) Rawson’s § 1983 claims should
be dismissed because Defendants are not state actors,
(2) Rawson’s ADA claim fails as a matter of law, and
(3) Defendants are entitled to immunity from Rawson’s
state law claims. Dkt. 9. On October 25, 2017, the
Court denied the motion concluding that (1) Rawson
had asserted sufficient allegations to support a “government nexus” between Defendants and state actors
and (2) Rawson has asserted sufficient allegations to
support a theory that Defendants acted with gross
negligence or bad faith, which overcomes the asserted

App. 33
immunity defense. Dkt. 17. The Court did not address
Rawson’s ADA claim.
On April 13, 2018, Rawson ﬁled a second amended
complaint. Dkt. 35. Rawson asserted 66 paragraphs of
factual allegations, a claim that Defendants acted under color of law, and ten substantive claims for relief.
Id. ¶¶ 4.4-4.66, 5.1-5.11. Rawson’s substantive claims
are as follows: (1) violation of his Fourth Amendment
rights, (2) violation of his substantive due process
rights under the Fourteenth Amendment, (3) violation
of his procedural due process rights under the Fourteenth Amendment, (4) violations of the ADA, 42 U.S.C.
§ 12132, (5) outrage, (6) false imprisonment, (7) medical malpractice, (8) violations the WLAD, (9) violations
of the CPA, and (10) a claim for excessive detention in
violation of Washington’s Involuntary Treatment Act
(“ITA”), RCW 71.05.510. Id. ¶¶ 5.2-5.11.
On May 8, 2018, Defendants answered and asserted eleven afﬁrmative defenses. Dkt. 36. Relevant
to the instant motions, Defendants asserted that Rawson failed to join one or more indispensable parties and
Rawson’s damages were caused “by the acts or omissions of third parties over whom Defendants had no
control.” Id. at 8.
On September 5, 2018, Rawson ﬁled a motion for
partial summary judgment and Defendants ﬁled a motion for summary judgment. Dkts. 58, 63. On September 24, 2018, the parties responded. Dkts. 73, 76. On

App. 34
September 28, 2018, the parties replied. Dkts. 83, 90.
On October 1, 2018, Rawson ﬁled a surreply. Dkt. 93.1
II.

FACTUAL BACKGROUND

A. RI
RI is a non-profit corporation incorporated in Arizona that is registered and licensed to do business
in Washington. French, Clingenpeel and Halarnakar
were employees of RI during the relevant period. In
2014, RI contracted with Optum Pierce Regional Support Network (“Optum”) to open and operate a facility
in Lakewood, Washington that provides evaluation
and treatment (“E&T”) services. The Lakewood facility
is licensed to conﬁne individuals who are involuntarily
committed on an emergency basis under the ITA.
RI’s facility was located on the grounds of one of
Washington State’s main mental hospitals, Western
State Hospital. Dkt. 60-5 at 3. Halarnakar, RI’s medical director, also worked full-time as a doctor at Western State Hospital and part-time as medical director of
another E&T service. Dkt. 77-4 at 5.
1

The Court grants Rawson’s motion to strike Defendants’ arguments relating to the Noerr-Pennington doctrine and the litigation privilege because they were raised for the ﬁrst time in
Defendants’ reply. Graves v. Arpaio, 623 F.3d 1043, 1048 (9th Cir.
2010) (“arguments raised for the first time in a reply brief are
waived.”). The Court also grants Rawson’s motion to strike Defendants’ submission of evidence with their reply. Proven v.
Miller, 102 F.3d 1478, 1483 (9th Cir. 1996). The remainder of
Rawson’s surreply is improper argument, which the Court will
not consider. Local Rules W.D. Wash. LCR 7(g).

App. 35
B. Rawson
On March 5, 2015, Clark County Sheriff Ofﬁcer
Chris Nicholls detained Rawson and ordered a medical
transport to Legacy Salmon Creek Hospital for a mental evaluation. The incident report provides as follows:
While working patrol I responded with
other deputies to the Bank of America in Hazel Dell. While en route, I was advised that
Kenneth Rawson had come back to the bank
today after being at the bank the day before.
While there the previous day, he had made
statements about getting guns and committing mass murder in order for the police to
take him seriously. Upon arrival I went in
with Deputies O’Dell and Mike Johnson Jr.
We made contact with Kenneth and I immediately placed my hands on his forearms and
told him not to move. He stated that he had a
gun on him and he would comply. I placed him
in handcuffs and advised him that he was being detained and not under arrest. Although
he did not physically resist me, he began to
yell to everyone in the bank that he had a gun
and that his rights were being violated. It was
about 11:00 am at the time and there were numerous employees and customers in the
building. Deputy Johnson stated that he had
taken possession of Ken’s loaded handgun and
cleared it safely. A loaded Glock magazine was
also found in his briefcase.
Ken was taken outside and interviewed
by other deputies while I went in and spoke
with both Dejanira (DJ) and Jason, who are

App. 36
the Assistant Manager and Manager, respectively. DJ advised that she sat down with Ken
yesterday and he began to talk about all the
evil people who are against him. He told her
that he would sit in front of his TV and “they”
would talk to him through his TV. He told her
“they” were doing this because of his gun. He
asked her if she knew what an AK-47 was but
she did not. He explained that an AK-47 was
used to shoot all the people in the theater in
Colorado. Ken explained to DJ that he was
having issues with his banks and his credit
and he felt it was a conspiracy against him.
He told DJ that all the evil people were making him crazy and that he might have to commit mass murder in order for the police to
take him seriously and look at all the evidence
he had. He explained again to DJ that all of
his phone conversations are being monitored
and his Veteran’s Affairs (VA) paperwork is
being intercepted.
Ken did have a valid concealed weapons
permit issued by the Clark County Sheriff ’s
Ofﬁce. I recommend that this license be reviewed.
When I went outside, I could see and hear
that Ken was talking to the other deputies
about the same topics of how people are
against him and how we all were going to pay.
He had several pieces of printed out materials stapled together that he carried in his
briefcase that he was concerned about. Per
Sgt. Trimble’s request, Kenneth was placed
on a mental hold and transported to Legacy

App. 37
Salmon Creek Hospital via AMR ambulance.
I followed the ambulance there and assisted
in checking him in and advising the staff, to
include the doctor on duty, of the situation and
his statements. I completed a hold form.
Dkt. 57-11 at 4-5.
After Rawson’s transport to the hospital, Clark
County Designated Mental Health Professional (“DMHP”)
Al Padilla (“Padilla”) evaluated Rawson. On March 6,
2018, Padilla ﬁled a petition in state court for the involuntary commitment of Rawson and a 72-hour mental health evaluation. Dkt. 61-9.2 Padilla arranged for
Rawson to be evaluated at RI. Dkt. 61-10. When he
arrived at RI, French, a Mental Health Professionals,
and Clingenpeel, an Advanced Registered Nurse Practitioner, evaluated him. Dkt. 61-11. After the evaluation, Clingenpeel prescribed some medication to
address Rawson’s “thoughts.” Id. at 4. Rawson refused
the medication. Id.
Based on their evaluation of Rawson, Clingenpeel
and French completed a petition to involuntarily commit Rawson for fourteen days following the expiration
of the initial 72-hour commitment. The petition states
that Rawson is “gravely disabled” and “presents a likelihood of serious harm to others” and that he requires
“intensive, supervised, 24-hour care.” Dkt. 61-13. These
conclusions were based on the information in the police
2

The parties have redacted a signiﬁcant amount of information that is publicly available. For example, this allegation appears in Rawson’s complaint yet is redacted in his motion.

App. 38
report that people were talking to Rawson through the
television and the bank employee’s comment that Rawson stated he would have to commit mass murder so
the police would listen to him. Id. Regarding actual
treatment at RI, the petition states that Rawson “continues to deny any problem other than the bank and
police misunderstanding” and that he “continues to
focus on being a victim and is passive in his participation in treatment.” Id. On March 10, 2015, the court
granted the petition and Rawson was involuntarily
committed for the additional fourteen days.
On March 14, 2015, Medical Director Halarnakar
met Rawson for the ﬁrst time. Dkt. 61-6 at 8-9. Halarnakar’s notes of this interaction state that Rawson was
calm, cooperative, and polite but that his speech was
pressured. Dkt. 61-12 at 6. Rawson told Halarnakar
that he felt like his freedom had been taken away, that
he didn’t have any symptoms of schizophrenia, and
that he didn’t hear any voices. Id. Halarnakar wrote
that Rawson needed to keep taking his medications after discharge and that the issue of Rawson’s weapon
with the Clark County Sheriff needed to be resolved
before Rawson could be discharged. Id.
On March 15, 2015, RI ﬁred Clingenpeel because
her charting practices were not meeting the appropriate standard. Dkt. 61-15. With Clingenpeel gone,
Halarnakar became Rawson’s attending provider. Dkt.
61-6 at 13. On March 19, 2015, Halarnakar met with
Rawson for a second time. In the notes from this
meeting, Halarnakar documented two objective observations: (1) that Rawson became argumentative

App. 39
and denied having a mental illness or needing antipsychotic medications and (2) that he denied suicidal or
homicidal ideations. Ex. 12 at 7. Based on these observations, Halarnakar concluded that Rawson had
pressured speech, was very paranoid, had no insight,
and needed further stabilization. Id. Halarnakar prescribed another medication and discussed with French
the need to ﬁle a petition for an additional 90-day detention. Id.
Pursuant to Halarnakar’s request, French drafted
a petition that day. The petition requested an additional 90 days of involuntary treatment at RI. Dkt. 6116. The petition alleged that Rawson had “threatened,
attempted, or inﬂicted physical harm upon the person
of another or him/herself, or substantial damage to
property of another during the period in custody for
evaluation and treatment, and presents a likelihood of
serious harm.” Id. Halarnakar and French declared
that
[Rawson], continues to display signs of
paranoia and delusions with guarded interactions with others. He lacks any connection to
the reality of his situation and the reasons
that brought him to the evaluation and treatment center.
***
[Rawson] attends groups and interacts
occasionally outside of group time. He spends
much of his time isolating in his room. At
other times has threatened other guests when
he does not believe he is being observed.

App. 40
[Rawson] does not acknowledge his mental illness and continues to blame his detainment
on his clothing that he wore to the bank.
Id. They claimed that Rawson required “intensive, supervised, 24-hour care” and that the court should involuntarily commit him to Western State Hospital. Id.
On March 23, 2015, Rawson requested a jury trial
on the petition. Dkt. 61-17. On March 24, 2015, the 14day detention order expired, but RI detained Rawson
while he awaited trial on the extended petition. On
March 25, 2018, French emailed Pierce County Deputy
Prosecuting Attorney Ken Nichols (“Nichols”) informing him that the VA had a bed available for Rawson.
Dkt. 61-19 at 2. Nichols replied as follows:
By all means end [sic] him to the VA and
get him off our radar!
I don’t really want to try this case.
I’m not sure there is enough to convince a
jury by clear cogent and convincing evidence
that he needs to be at Western State.
Id. Despite this communication, Rawson remained at
RI.
On April 9, 2015, Nichols informed French that Dr.
James Manly (“Dr. Manly”), an expert psychiatrist,
would come to RI to evaluate Rawson for trial. Id. at
46. The next day, Dr. Manly met with Rawson for three
and a half hours. Dr. Manly’s report provides as follows:

App. 41
Mr. Rawson presented for his appointment with good hygiene and grooming. His
responses to the interview questions were cogent, detailed, lineal, and on topic. He accurately described the events that led to his ﬁrst
psychiatric admission. He did not become defensive during the interview. He did report a
minor level of frustration about why he continued to be hospitalized. Given the facts to
this matter, his lack of current psychiatric
symptoms, and his lack of mental health history, his expressed frustration did not strike
me as unreasonable.
Mr. Rawson did not evidence pressured
speech, tangential thinking, or obvious thinking errors. He did not evidence or report
symptoms related to psychosis or a mood disorder. He did not report or evidence anger. In
fact, throughout the interview Mr. Rawson
maintained his composure and did not evidence or report thoughts of suicide or self
harm. He did not report or evidence a plan or
desire to hurt another person.
As part of the interview, I administered
the Personality Assessment Inventory (PAD.
The validity indicators noted a mild level of
defensiveness. His level of defensiveness is
quite typical within forensic settings and not
surprising in this situation. He reported some
concern about his health, which coincided
with his self-report of a spinal injury and bilateral sciatica. The resulting proﬁle PAI was
within normal limits. The scales related to

App. 42
mood, psychosis, and impulsivity were not signiﬁcantly elevated.
I have also spoken to his father who has
traveled from Mr. Rawson’s home state of
Texas. Mr. Rawson reported his son had no
mental health history or history of violence to
others.
In summary, I do not ﬁnd Mr. Rawson
presently at risk to harm himself or being a
danger to others.
Id.
On April 16, 2015, Nichols emailed Dr. Manly’s report to Halarnaker and French. Dkt. 61-19 at 32. Nichols followed up with an email providing the statutory
grounds for involuntary commitment and requesting
that Halarnaker and French provide speciﬁc statements that Rawson made at RI that were threatening.
Id. at 10. Halarnaker replied that Rawson “has refused
to talk lately.” Id. at 9. Nichols’s response requested
clariﬁcation that Halarnaker was forcefully medicating Rawson every night and, if so, that could explain
why Rawson presented so well to Dr. Manly. Id. Halarnaker conﬁrmed the nightly injections and stated that
they did not have any “threatening statements.” Id.
Halarnaker also wrote that Rawson told them that “he
won’t hurt anyone.” Id. Nichols wrote that he knew
Rawson’s “symptoms have subsided because he’s been
on meds, but without them maybe he would be gravely
disabled quickly.” Id. at 11. Halarnaker replied “[t]hat
is the only argument we have.” Id.

App. 43
On April 27, 2015, Halarnakar wrote to Nichols informing him of a mutual resolution to the situation.
Halarnakar stated that Rawson had agreed to sign a
voluntary commitment form, and, in return, RI was going to transport Rawson to the Portland VA so that he
could be evaluated and, if necessary, treated at that inpatient facility. Dkt. 6112 at 9-10. Halarnaker stated
that if Nichols agreed with the plan, then RI would
transport Rawson the following day. Id. at 10. On April
29, 2015, RI discharged Rawson.
On August 16, 2016, the Washington Court of Appeals held that Rawson’s “detention was improper because [Padilla] did not consult with an examining
physician as required by RCW 71.05.154.” In re Det. of
K.R., 195 Wn. App. 843, 846 (2016).
In support of his claims, Rawson has submitted
the expert report of Dr. Jeffrey Geller (“Dr. Geller”).
Dkt. 78. In short, Dr. Geller opines that RI’s records do
not support the decisions to involuntarily commit Rawson, RI’s records do not support the medical decision to
forcibly medicate Rawson, less restrictive alternatives
existed, and RI’s staff was not qualiﬁed to evaluate and
treat Rawson. Id. at 81-82.
On the other hand, Defendants have submitted
the expert report of Dr. Mark R. McClung (“Dr.
McClung”). Dkt. 48-1. Dr. McClung opines that “[t]he
length of time Mr. Rawson remained at Recovery Innovations was not related to any deﬁcits in his psychiatric treatment.” Id. at 4. He also opines that Rawson’s

App. 44
entire period of involuntary commitment was medically justiﬁed. Id. For example, he declares that
The Petition for 90-day commitment
(completed by clinicians at Recovery Innovations) provides information to meet one of
the two possible requirements for a 90-day
commitment (threatened violence), as well as
providing a relevant diagnosis and an opinion
that [a least restrictive alternative] is not recommended.
Id.
III.

DISCUSSION

A. Summary Judgment Standard
Summary judgment is proper only if the pleadings, the discovery and disclosure materials on ﬁle, and
any afﬁdavits show that there is no genuine issue as to
any material fact and that the movant is entitled to
judgment as a matter of law. Fed. R. Civ. P. 56(c). The
moving party is entitled to judgment as a matter of law
when the nonmoving party fails to make a sufﬁcient
showing on an essential element of a claim in the case
on which the nonmoving party has the burden of proof.
Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986). There
is no genuine issue of fact for trial where the record,
taken as a whole, could not lead a rational trier of fact
to ﬁnd for the nonmoving party. Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586 (1986)
(nonmoving party must present specific, significant
probative evidence, not simply “some metaphysical

App. 45
doubt”). See also Fed. R. Civ. P. 56(e). Conversely, a
genuine dispute over a material fact exists if there is
sufficient evidence supporting the claimed factual dispute, requiring a judge or jury to resolve the differing
versions of the truth. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 253 (1986); T.W. Elec. Serv., Inc. v. Pac.
Elec. Contractors Ass’n, 809 F.2d 626, 630 (9th Cir.
1987).
The determination of the existence of a material
fact is often a close question. The Court must consider
the substantive evidentiary burden that the nonmoving party must meet at trial—e.g., a preponderance of
the evidence in most civil cases. Anderson, 477 U.S. at
254; T.W. Elec. Serv., Inc., 809 F.2d at 630. The Court
must resolve any factual issues of controversy in favor
of the nonmoving party only when the facts speciﬁcally
attested by that party contradict facts speciﬁcally attested by the moving party. The nonmoving party may
not merely state that it will discredit the moving
party’s evidence at trial, in the hopes that evidence can
be developed at trial to support the claim. T.W. Elec.
Serv., Inc., 809 F.2d at 630 (relying on Anderson, 477
U.S. at 255). Conclusory, nonspeciﬁc statements in afﬁdavits are not sufﬁcient, and missing facts will not be
presumed. Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 871,
888-89 (1990).
B. 42 U.S.C. § 1983
To prevail under § 1983, a plaintiff must show
(1) that defendants deprived him of a right secured by

App. 46
the Constitution or laws of the United States and
(2) that, in doing so, Defendants acted under color of
state law. Flagg Bros., Inc. v. Brooks, 436 U.S. 149, 15657 (1978).
In this case, the parties dispute whether Defendants acted under color of law. As a general rule, it is
presumed that actions by private parties are not taken
under color of state law. Florer v. Congregation Pidyon
Shevuyim, N.A., 639 F.3d 916, 922 (9th Cir. 2011) (“We
start with the presumption that conduct by private
actors is not state action.”). However, “[i]f the [Constitution] is not to be displaced, . . . its ambit cannot be a
simple line between States and people operating outside formally governmental organizations, and the
deed of an ostensibly private organization or individual is to be treated sometimes as if a State had caused
it to be performed.” Brentwood Acad. v. Tennessee Secondary Sch. Athletic Ass’n, 531 U.S. 288, 295 (2001).
In the Court’s order denying Defendants’ motion
to dismiss on this issue, the Court discussed the various tests courts implement when considering state action and concluded that Rawson has asserted sufﬁcient
factual allegations to state a plausible claim. Dkt. 17
at 2-7. That order, however, dealt with this issue at a
high level of generality, which has caused signiﬁcant
problems with the current round of motions and pretrial ﬁlings. In retrospect, the Court should probably
have granted Defendants’ motion, dismissed Rawson’s
claims without prejudice, and granted Rawson leave to
amend because the state action “inquiry ‘begins by
identifying the speciﬁc conduct of which the plaintiff

App. 47
complains.’ ” Caviness v. Horizon Cmty. Learning Ctr.,
Inc., 590 F.3d 806, 814 (9th Cir. 2010) (quoting Am.
Mfrs. Mut. Ins. Co. v. Sullivan, 526 U.S. 40, 50 (1999)
(internal quotation marks omitted)); see also Blum v.
Yaretsky, 457 U.S. 991, 1003 (1982) (“Faithful adherence to the ‘state action’ requirement . . . requires
careful attention to the gravamen of the plaintiff ’s
complaint.”).
Turning to Rawson’s complaint, each claim is a
single sentence based on the factual allegations asserted above. See, e.g., Dkt. 35, ¶ 5.2 (“The facts described above constitute violations of Mr. Rawson’s
Fourth Amendment rights by Recovery Innovations,
Ms. French, Ms. Clingenpeel, and Dr. Halarnakar.”).
Such general claims has resulted in confusion as to the
gravamen of Rawson’s complaint as to each claim
against each defendant. See, e.g., Dkt. 90 at 3 (“Plaintiff
ﬁnally identiﬁed his ‘gross negligence’ claims [in his response brief.]”). Likewise, the disputed jury instructions are the functional equivalent of mini-motions for
summary judgment. See, e.g., Dkt. 126 at 12 (“Plaintiff ’s Fourth Amendment claim cannot be reconciled
with the Washington Supreme Court’s opinion in In re
McLaughlin, 100 Wn.2d 832 (1984), which considered
the technical sufﬁciency of two petitions for 90-day involuntary commitments. Rather than creating a duty
to withdraw a defective petition, the Supreme Court
recognized that petitions could be re-drafted, modiﬁed
and amended before, during or even after trial. However, if the Court disagrees, Defendants propose the instruction below.”).

App. 48
In light of the existing record, the Court ﬁnds that
numerous legal issues exist within Rawson’s § 1983
claims. The Court will highlight some of these issues
below in addressing Rawson’s two theories of state action: (1) government nexus and (2) public function.
Dkt. 35, ¶ 5.1. The Court will address the latter theory
ﬁrst.
1. Public Function
“The public function test is satisﬁed only on a
showing that the function at issue is ‘both traditionally
and exclusively governmental.’ ” Kirtley v. Rainey, 326
F.3d 1088, 1093 (9th Cir. 2003) (quoting Lee v. Katz, 276
F.3d 550, 554 (9th Cir. 2002)).
In this case, Rawson argues that “RI and it employees perform a function historically performed exclusively by state actors.” Dkt. 58 at 14. Rawson relies
on In re Det. of S.E., 199 Wn. App. 609 (2017), review
denied, 189 Wn.2d 1032 (2018), to support his position,
but that court only considered whether an individual
has a right to a jury trial at the 14-day petition hearing, id. at 617-18. The court concluded that “the probable cause hearing set forth by RCW 71.05.240 features
an adversarial proceeding wherein a judge—rather
than a jury—decides whether, by a preponderance of
the evidence, a person’s mental illness justiﬁes a cumulative detention period of up to 17 days.” Id. at 619.
The court also concluded that “[t]here is no indication in our territorial or early statehood authority
that a jury was required to decide whether a person’s

App. 49
suspected insanity justiﬁed detaining the person for
up to 17 days.” Id. Rawson fails to show how this authority stands for the proposition that involuntary
commitments are both traditionally and exclusively
governmental. Therefore, the Court grants Defendants’ motion and denies Rawson’s motion on the issue
of state action under the public function test.
2. Government Nexus
“In order to be considered state action, when a private actor participates in a governmental act, the court
must ﬁnd a sufﬁciently close nexus between the state
and the private actor ‘so that the action of the latter
may be fairly treated as that of the State itself.’ ” Jensen v. Lane Cty., 222 F.3d 570, 575 (9th Cir. 2000) (quoting Jackson v. Metropolitan Edison Co., 419 U.S. 345,
350 (1974)).
In this case, Rawson has failed to fully articulate
his claims and the parties approach this test from a
high level of generality. Based on Rawson’s proposed
jury instructions and proposed verdict form, it appears
that Rawson asserts § 1983 claims as follows: (1) all
four Defendants improperly seized Rawson in violation
of the Fourth Amendment, (2) all four Defendants
wrongfully detained Rawson through the use of deliberately fabricated evidence in violation of the Fourteenth Amendment, (3) all four Defendants violated
Rawson’s bodily integrity in violation of the Fourteenth Amendment, and (4) Halarnakar violated Rawson’s Fourth and Fourteenth Amendment rights by

App. 50
failing to supervise the act or omissions of RI’s employees. Dkts. 126 at 12-26, 126-1 at 1-4. Defendants have
not challenged the propriety of these claims or whether
Rawson has evidence to support each element of each
claim. This is fatal to the Court’s ability to properly
consider whether Defendants acted under color of law
because “[f ]aithful adherence to the ‘state action’ requirement . . . requires careful attention to the gravamen of the plaintiff ’s complaint.” Blum, 457 U.S. at
1003. Regardless, the Court will address as much of the
dispute as possible based on the briefs and the current
record.
The parties seem to implicitly agree that the facts
of this case fall somewhere between the facts of Jensen,
222 F.3d 570, and the facts of Hood v. King Cty., C15828RSL, 2017 WL 979024, at *13 (W.D. Wash. Mar. 14,
2017), aff ’d sub nom. Hood v. Cty. of King, 17-35320,
2018 WL 3462496 (9th Cir. July 18, 2018). In Jensen,
the plaintiff was arrested after pointing his gun out a
car window at a pedestrian. 222 F.3d at 572. Based on
this incident and other information regarding plaintiff ’s threatening behavior, a public mental health specialist consulted with another public mental health
specialist and Jeffrey M. Robbins, M.D. (“Dr. Robbins”),
a private specialist under contract with the county. Id.
at 572-73. After these consultations, the public mental
health specialist recommended that plaintiff be detained at a public mental health hospital for evaluation. Id. at 573. Dr. Robbins signed an order detaining
plaintiff without personally evaluating the plaintiff
and based his decision entirely on the police reports

App. 51
and information gained from the public doctors. Id. Dr.
Robbins brieﬂy met with plaintiff over the course of
the next three days of plaintiff ’s detention, but the
plaintiff “did not cooperate in the examination, so Dr.
Robbins again relied heavily on police reports and information obtained from [the public doctors] in deciding to continue [plaintiff ’s] detention.” Id. On the
fourth day of detention, a public doctor evaluated
plaintiff and concluded that there was insufﬁcient evidence to proceed with requesting a court order for additional detention. Id. Dr. Robbins agreed with this
conclusion, and the plaintiff was released. Id.
Dr. Robbins moved for summary judgment on the
plaintiff ’s § 1983 claim arguing that he did not act under color of law. Id. The district court granted the motion but the Ninth Circuit reversed. Id. at 573, 575-76.
The Ninth Circuit found and concluded as follows:
The record is clear that Dr. Robbins and
the County through its employees have undertaken a complex and deeply intertwined process of evaluating and detaining individuals
who are believed to be mentally ill and a danger to themselves or others. County employees initiate the evaluation process, there is
signiﬁcant consultation with and among the
various mental health professionals (including both [private] psychiatrists and county
crisis workers), and [the private employer]
helps to develop and maintain the mental
health policies of [the public mental health
hospital]. We are convinced that the state has
so deeply insinuated itself into this process

App. 52
that there is “a sufﬁciently close nexus between the State and the challenged action of
the [defendant] so that the action of the latter
may be fairly treated as that of the State itself.” Jackson, 419 U.S. at 350.
Jensen, 222 F.3d at 575.
On the other hand, in Hood, this Court concluded
that the private actors did not act under color of law.
Plaintiff Luci Hood was detained by deputies after
they observed her approach other individuals in a
threatening way. Hood, 2017 WL 979024 at *3. The
deputies called an ambulance, which transported Ms.
Hood to a private hospital for an evaluation under the
ITA. Id. Although the facts regarding the origination
of Ms. Hood’s detention do not appear in the published
order, in the public, redacted version of the motion for
summary judgment, the defendants assert that a team
of two public DMHPs personally evaluated Ms. Hood
at the private hospital and then ﬁled a petition for a
72-hour involuntary hold. Hood, C15-828RSL, Dkt. 68
at 6-7. Once that hold was in place, Ms. Hood was
transferred to another private hospital for treatment
and evaluation. Ms. Hood alleged that the new hospital
failed to provide an independent assessment of her
mental health and continued the involuntary hold
based purely on the DMHP’s petition. Id., Dkt. 1-1 at
10-11. Based on these facts, the Court found and concluded as follows:
A sufﬁciently close nexus does not exist in
this case. In Jensen v. Lane County, 222 F.3d
570 (9th Cir. 2000), the Ninth Circuit held

App. 53
that where a private medical provider and a
county through its employees “have undertaken a complex and deeply intertwined process of evaluating and detaining individuals
who are believed to be mentally ill and a danger to themselves or others,” the government
has “so deeply insinuated itself into this process that there is ‘a sufficiently close nexus
between the State and the challenged action
of the defendant so that the action of the latter may fairly be treated as that of the State
itself.’ ” Jensen, 222 F.3d at 575 (quoting
Jackson, 419 U.S. at 350). Ms. Hood argues
that Jensen controls here, but the Court disagrees.
In Blum v. Yaretsky, 457 U.S. 991 (1982),
the U.S. Supreme Court found no state action
where the challenged medical determinations
were “made by private parties according to
professional standards that are not established by the State.” Blum, 457 U.S. at 1008.
In Jensen, the Ninth Circuit distinguished
Blum on the grounds that in Jensen, though
the committing physician made the medical
judgment under which the plaintiff was detained, “[c]ounty employees initiate[d] the
evaluation process, [and] there [was] signiﬁcant consultation with and among the various
mental health professionals (including both
[private] psychiatrists and county crisis workers),” such that the state’s involvement in the
decision-making process overrode the private
provider’s “purely medical judgment.” Jensen,
222 F.3d at 575.

App. 54
Such is not the case here. It is true that
county law enforcement initiated Ms. Hood’s
ITA process; that county DMHPs relied significantly on the reports of hospital staff in conducting the assessment that led to Ms. Hood’s
72-hour detention; that the hospital boarded
Ms. Hood after the county DMHPs initiated
the 72-hour detention; and that a hospital
psychiatrist declined to release Ms. Hood apparently out of deference to the county
DMHPs’ detention recommendation. But unlike in Jensen, where the private practitioner
was operating under contract with the county,
222 F.3d at 573, the private hospitals in this
case were fulﬁlling their own statutory responsibilities under the ITA rather than a
contractual responsibility to King County.
Moreover, the plaintiff in Jensen was detained
in a county psychiatric hospital, then discharged to the county jail, id., while in this
case Ms. Hood was detained exclusively at private hospitals and then released.
The facts here reveal sustained and routine cooperation between King County and
the hospitals, but they do not show that the
county’s involvement overrode the hospital
staff ’s medical judgment such that the hospitals’ actions can fairly be treated as those of
the government. Accordingly, the hospitals
were not acting under color of law, and Ms.
Hood’s constitutional claims against the hospitals for deprivation of liberty and privacy
must be dismissed.
Hood, 2017 WL 979024 at *12-13.

App. 55
While these authorities provide principles to evaluate Rawson’s claims, the parties deal only in generalities that all four Defendants were or were not acting
under color of law at all times. This approach seems
unworkable because Rawson’s initial involuntary commitment is similar to Ms. Hood’s and later commitment is similar to the facts considered in Jensen. For
example, Padilla, the county DMHP, ordered Rawson’s
initial 72-hour detention. After that, Clingenpeel and
French evaluated Rawson and submitted the 14-day
petition. Although Rawson alleges that they based the
petition mostly on information contained in the police
reports, Rawson fails to cite facts establishing that
their independent medical judgment was improperly
inﬂuenced by state actors. This is unlike Jensen where
the private doctor failed to personally interview the detainee and based his detention decision purely on the
police reports and information provided by public doctors. Thus, it is hard to reach the conclusion that “the
state has so deeply insinuated itself into this process”
that Clingenpeel and French’s actions should be considered those of the state itself. Jensen, 222 F.3d at 575.
Instead, it is a much more reasonable conclusion that
Rawson has failed to establish “that the county’s involvement overrode the hospital staff ’s medical judgment such that the hospitals’ actions can fairly be
treated as those of the government.” Hood, 2017 WL
979024 at *13. This would be a simpler matter if Rawson’s ordeal ended at this point.
This is the point when the circumstances move toward those encountered in Jensen. The state court

App. 56
granted the petition for an additional fourteen days of
detention, and RI ﬁred Clingenpeel. Halarnakar became Rawson’s treating physician, and he worked with
Nichols to pursue a 90-day involuntary commitment
order. While Defendants assert that this was “routine
cooperation,” the emails evidence persuasion and a
joint effort to continue Rawson’s detention. Nichols
even proposed a new theory for the detention, which
could establish state action that overrode Halarnakar
and/or French’s independent medical judgment. Thus,
it would be easy to conclude that Halarnakar and/or
French engaged in a complex and intertwined process
with Nichols, similar to the individuals in Jensen.
The main problem, however, is that the Court can
only address these issues as hypotheticals because
Rawson has failed to explain the gravamen of his complaint with these detentions and what defendant violated his rights at what point during these detentions.
He also seems to claim that his rights were violated
because one or more defendants failed to release him
but doesn’t explain at what point he should have been
released. So many possibilities exist that it is impossible for the Court to evaluate when “the county’s
involvement overrode the hospital staff ’s medical
judgment such that the hospitals’ actions can fairly be
treated as those of the government.” Hood, 2017 WL
979024 at *12-13. Moreover, Rawson fails to show how
RI, as the employer, would be responsible under respondeat superior for the individual actions of its staff.
See, e.g., Austen v. Cty. of Los Angeles, 15-07372 DDP
(FFMX), 2018 WL 501552, at *9 (C.D. Cal. Jan. 19,

App. 57
2018) (considering § 1983 liability of hospital based
only on its policies, practices, or customs). Issues also
exist regarding how the Court should address underlying factual disputes that are pertinent to the state
action inquiry. Therefore, the Court denies without
prejudice the parties’ motions on the issue of state action because the facts, claims, and issues are not amenable to consideration at this point.
C. ADA
Rawson asserts a claim for a violation of § 12132
of the ADA. Dkt. 35, ¶ 5.5. Title II of the ADA prohibits
a public entity from discriminating against a qualiﬁed
individual with a disability on the basis of that disability. 42 U.S.C. § 12132. To state a claim of disability discrimination under Title II, the plaintiff must allege
four elements: (1) the plaintiff is an individual with a
disability; (2) the plaintiff is otherwise qualiﬁed to participate in or receive the beneﬁt of some public entity’s
services, programs, or activities; (3) the plaintiff was
either excluded from participation in or denied the
beneﬁts of the public entity’s services, programs, or activities, or was otherwise discriminated against by the
public entity; and (4) such exclusion, denial of beneﬁts,
or discrimination was by reason of the plaintiff ’s disability. Thompson v. Davis, 295 F.3d 890, 895 (9th Cir.
2002).
In this case, Defendants move for summary judgment on Rawson’s ADA claim. Rawson fails to identify
a single fact to support any of the elements of his claim.

App. 58
Instead, he argues that the Court rejected Defendants’
arguments in denying their motion to dismiss the complaint. Dkt. 76 at 23. The Court, however, denied Defendants’ motion without speciﬁcally addressing the
merits of this claim. See Dkt. 17. Thus, Rawson is relying on an implicit rejection of these arguments, which
is not a very persuasive position.
Rawson also asserts that Defendants “provide no
new facts so the Court’s prior ruling applies to this Motion.” Dkt. 76 at 23. Rawson is incorrect because it is
not Defendants’ burden to provide facts. It is Defendants’ duty, as the moving party, to “demonstrate the absence of a genuine issue of material fact.” Celotex, 477
U.S. at 323. Once that is established, Rawson must
submit actual evidence on the contested elements of
his claim. Id. (“One of the principal purposes of the
summary judgment rule is to isolate and dispose of factually unsupported claims”). Rawson has failed to meet
his burden and merely rests on the Court’s previous
order. “It is not our task, or that of the district court, to
scour the record in search of a genuine issue of triable
fact. We rely on the nonmoving party to identify with
reasonable particularity the evidence that precludes
summary judgment.” Keenan v. Allan, 91 F.3d 1275,
1279 (9th Cir. 1996). In the absence of identiﬁed evidence establishing every element of his claim, the
Court grants Defendants’ motion for summary judgment on Rawson’s ADA claim.3

3

If Rawson intends to assert a claim under Olmstead v. L.C.
ex rel. Zimring, 527 U.S. 581, 598 (1999), 28 C.F.R. § 35.130(d), or

App. 59
D. ITA
Defendants move for summary judgment on the
issue of immunity under the ITA, Dkt. 63 at 18-21.
Rawson moves for summary judgment on at least a
portion of his claim that Defendants violated the ITA.
Dkt. 58 at 18-19. The Court will address the immunity
issue ﬁrst and then the merits of Rawson’s claim.
1. Immunity
Under the ITA, Defendants are immune from liability for performing their duties as long as the “duties
were performed in good faith and without gross negligence.” RCW 71.05.120(1). “Gross negligence is that
which is substantially and appreciably greater than
ordinary negligence.” Estate of Davis v. State, Dep’t of
Corr., 127 Wn. App. 833, 840 (2005), as amended (June
2, 2005), publication ordered (June 2, 2005).
In this case, Defendants request immunity because Rawson’s only evidence supporting gross negligence should be disregarded. Dkt. 63 at 19. For
example, Defendants have essentially ﬁled a motion to
exclude Dr. Geller asserting that the Court is “obligated to disregard his facially erroneous and baseless
opinions.” Dkt. 63 at 19. The Court declines Defendants’ invitation to convert a portion of their summary
judgment motion into a motion to exclude. Similarly,
Defendants argue that Rawson’s “absurd testimony . . .
28 CFR § 41.51(d), as set forth in his trial brief, he must ﬁle a
motion to amend his complaint because he speciﬁcally limited his
claim to a violation of 42 U.S.C. § 12132. Dkt. 35, ¶ 5.5.

App. 60
is not credible and need not be considered for purposes
of summary judgment.” Dkt. 90 at 3 n.6. While the
Court may disregard evidence in certain circumstances, see Scott v. Harris, 550 U.S. 372, 380 (2007),
Defendants have failed to show that Rawson’s testimony is “blatantly contradicted by the record,” id. If a
juror believes Rawson such that Clingenpeel ﬁled the
14-day petition for Rawson’s continued involuntary detention after an evaluation that lasted less than 15 seconds, then the jury could ﬁnd that Clingenpeel was
grossly negligent in performing her duties. Regardless,
Defendants’ motion is based entirely on the Court disregarding Rawson’s evidence, which the Court refuses
to do. Therefore, the Court denies Defendants’ motion
on this issue.
2. ITA Liability
Rawson moves for partial summary judgment on
his claim for excessive detention in violation of the
ITA. Dkt. 58 at 18-19. Regarding the burden of proof
on this issue, “where the moving party has the burden—
the plaintiff on a claim for relief or the defendant on
an afﬁrmative defense—his showing must be sufﬁcient
for the court to hold that no reasonable trier of fact
could ﬁnd other than for the moving party.” Calderone
v. United States, 799 F.2d 254, 259 (6th Cir. 1986) (citation omitted; emphasis in original); see also Southern
Calif. Gas Co. v. City of Santa Ana, 336 F.3d 885, 888
(9th Cir. 2003).

App. 61
The civil commitment statute requires that “providers act in good faith” and can “be held civilly liable
for . . . detaining a person for more than the allowable
number of days.” In re Det. of June Johnson, 179 Wn.
App. 579, 589 (2014) (citing RCW 71.05.510). The 14day involuntary commitment shall terminate during
the commitment when “in the opinion of the professional person in charge of the facility or his or her professional designee, (a) the person no longer constitutes
a likelihood of serious harm, or (b) no longer is gravely
disabled, or (c) is prepared to accept voluntary treatment upon referral, or (d) is to remain in the facility
providing intensive treatment on a voluntary basis.”
RCW 71.05.260.
In this case, Defendants have submitted evidence
that at most establishes the existence of material question of facts on this issue and at least establishes that
a reasonable trier of fact could ﬁnd other than for Rawson. Dr. McClung opines that Rawson’s detention was
medically justiﬁed, which, taken in the light most favorable to Defendants, establishes a question of fact
whether Rawson no longer constituted a likelihood of
serious harm. Therefore, the Court denies Rawson’s
motion on this issue.
E. RCW Chapter 7.70
Defendants argue that, “[u]nder Washington law,
claims arising out of healthcare, regardless of the type
of claim, are governed by Chapter 7.70 RCW.” Dkt. 63
at 22. Defendants rely on Ewing v. Good Samaritan

App. 62
Hosp., C07-5709 FDB, 2009 WL 2855623 (W.D. Wash.
Aug. 31, 2009), to support their position. Dkt. 63 at 22.
In Ewing, the Court considered an unopposed motion
for summary judgment based on the hospital and child
protective services removing a drug addicted newborn
from its parents. Ewing, 2009 WL 2855623 at *3. Defendants rely on the Ewing Court’s conclusion that the
plaintiff ’s claims were strictly limited to medical malpractice because the plaintiff failed to produce any evidence of assault, battery, or false imprisonment. Dkt.
63 at 22. Defendants’ reliance, however, is misplaced
because unlike the plaintiff in Ewing, Rawson has submitted sufﬁcient evidence to support his other state
law claims. Therefore, the Court denies Defendants’
motion on this issue.
F. CPA
The CPA prohibits “[u]nfair methods of competition and unfair or deceptive acts or practices in the
conduct of any trade or commerce.” RCW 19.86.020. To
prevail in a private CPA claim, the plaintiff must prove
(1) an unfair or deceptive act or practice, (2) occurring
in trade or commerce, (3) affecting the public interest, (4) injury to a person’s business or property, and
(5) causation. Hangman Ridge Stables, Inc. v. Safeco
Title Ins. Co., 105 Wn.2d 778, 784 (1986).
In this case, Defendants move for summary judgment on Rawson’s CPA claim. Rawson contends that
Defendants “held themselves out to the public as qualiﬁed and capable of evaluating and treating patients

App. 63
. . . but they were not.” Dkt. 76 at 25. Rawson fails
to identify how each defendant individually accomplished this deception, which is sufﬁcient reason alone
to grant Defendants’ motion. Moreover, Rawson fails to
cite any fact that establishes deception in obtaining or
retaining patients at RI. This is fatal to any claim
based on the entrepreneurial activities of these medical professionals. See Michael v. Mosquera-Lacy, 165
Wn.2d 595, 603 (2009) (“Entrepreneurial aspects do
not include a doctor’s skills in examining, diagnosing,
treating, or caring for a patient.”) (citing Wright v.
Jeckle, 104 Wn. App. 478, 485 (2001)).
Defendants also argue that Rawson has failed to
establish any damage to his business or property. Dkt.
63 at 24. Rawson contends that his payment to Dr. Geller to investigate his claims constitutes a prelitigation
injury. Dkt. 76 at 25. None of the cases Rawson cites
stands for the proposition that hiring a medical expert
to provide an opinion that can be used to establish
medical malpractice or similar claims is an injury sufﬁcient to establish a CPA claim. If this were the law,
then every plaintiff that hired an expert prior to ﬁling
a complaint could include a CPA claim seeking treble
damages and attorney’s fees. This is an absurd proposition. Therefore, the Court grants Defendants’ motion
on Rawson’s CPA claim.
G. False Imprisonment
Rawson moves for partial summary judgment on
his claim for false imprisonment for his detention after

App. 64
April 16, 2015. Dkt. 58 at 19. “Unlawful imprisonment
is the intentional conﬁnement of another’s person, unjustiﬁed under the circumstances.” Kellogg v. State, 94
Wn.2d 851, 856 (1980).
Similar to Rawson’s claim for excessive detention under the ITA, Rawson fails to establish that no
reasonable juror could ﬁnd other than for him. Dr.
McClung’s opinion at least creates a question of fact
whether Rawson’s conﬁnement was unjustiﬁed under
the circumstances. Therefore, the Court denies Rawson’s motion on this issue.
H. Affirmative Defenses
Rawson moves for summary judgment on Defendants’ affirmative defenses that Rawson failed to
join indispensable parties and that his damages were
caused by third parties. Dkt. 58 at 21-25. Regarding
the former, Defendants failed to directly respond or
provide any authority in support of their position. At
most, Defendants argue that dismissal of this defense
“is not appropriate at this stage.” Dkt. 73 at 23. Contrary to Defendants’ position, dismissal is appropriate
at this stage if they, as the non-moving party, fail to
establish that material questions of fact exist for trial.
See Fed. R. Civ. P. 56. Turning to the merits, a party is
“required” only if (1) complete relief cannot be accorded
among the existing parties, or (2) the party has a legal
interest in the subject of the suit or could, through its
absence, subject an existing party to multiple or inconsistent legal obligations. Fed. R. Civ. P. 19(a).

App. 65
During discovery, Defendants identiﬁed Clark
County Sherriff s Ofﬁce, Clark County Crisis Services,
and Legacy Salmon Creek Medical Center as indispensable parties. Regarding the ﬁrst two entities, it is unlikely that they could even be parties because they are
entities operated by Clark County, which would be the
real party in interest. Bradford v. City of Seattle, 557
F. Supp. 2d 1189, 1207 (W.D. Wash. 2008) (“In order to
bring an appropriate action challenging the actions,
policies or customs of a local governmental unit, a
plaintiff must name the county or city itself as a party
to the action, and not the particular municipal department or facility where the alleged violation occurred.”)
(citing Nolan v. Snohomish County, 59 Wn. App. 876,
883 (1990)). Despite this probable error, Defendants
have failed to submit any fact establishing that either
the sheriff ’s ofﬁce or the crisis service is “indispensable.” Therefore, the Court grants Rawson’s motion as to
these parties.
Likewise, Defendants fail to submit any fact establishing that Legacy Salmon Creek Medical Center is
indispensable. Therefore, the Court grants Rawson’s
motion on Defendants’ afﬁrmative defense of failure to
add an indispensable party.
Regarding the defense that Rawson’s damages
were cause by third parties, such a defense is an attack
on the sufﬁciency of Rawson’s claims and “is not a
proper afﬁrmative defense.” Moore v. King Cty. Fire
Prot. Dist. No. 26, C05-442JLR, 2006 WL 2061196, at
*14 (W.D. Wash. July 21, 2006), aff ’d in part, 327 Fed.
Appx. 5 (9th Cir. 2009). For example, the question of

App. 66
fact whether Rawson suffered damages caused by Defendants’ actions is for the jury to decide based on the
evidence presented. Defendants may present evidence
of intervening or superseding causes of Rawson’s alleged damages, but such evidence would not establish
a proper afﬁrmative defense. Id.; see also Hernandez v.
Cty. of Monterey, 306 F.R.D. 279, 283 (N.D. Cal. 2015)
(“An afﬁrmative defense, under the meaning of Federal
Rule of Civil Procedure 8(c), is a defense that does not
negate the elements of the plaintiff ’s claim, but instead precludes liability even if all of the elements of
the plaintiff ’s claim are proven.”). Therefore, the Court
grants Rawson’s motion on this afﬁrmative defense.
I.

Trial

The Court ﬁnds that this matter is not currently
ready for trial. Because of the uncertainty of Rawson’s
§ 1983 claims and upon review of the pretrial ﬁlings,
this matter is unmanageable in its current state and
the Court has serious doubts as to the reliability of any
jury verdict. Therefore, the Court sua sponte strikes
the current trial date and pretrial conference. The
Court does not reach this conclusion lightly, and the
undersigned has never continued a trial due to manageability concerns. The Court has considered reasonable alternatives to moving trial at this late date but
is unable to find an alternative that alleviates the
concerns stated herein. This matter presents unique
problems, identiﬁed above, that necessitates further
narrowing of the issues before convening a jury to decide the issues. The parties shall ﬁle a joint status

App. 67
report setting a proposed brieﬁng schedule on the remaining issues, speciﬁcally Rawson’s § 1983 claims,
and a proposed trial date. The report shall be ﬁled no
later than December 14, 2018.
IV.

ORDER

Therefore, it is hereby ORDERED that Defendants’ motion for summary judgment, Dkt. 63, and Rawson’s motion for partial summary judgment, Dkt. 58,
are GRANTED in part and DENIED in part as
stated herein. The pretrial conference and trial are
STRICKEN. The parties shall ﬁle a joint status report
no later than December 14, 2018.
Dated this 27th day of November, 2018.
/s/ Benjamin H. Settle
BENJAMIN H. SETTLE
United States District Judge

App. 68
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
KENNETH RAWSON,

CASE NO. C17-5342 BHS

Plaintiff,

ORDER DENYING IN
PART AND RESERVING
v.
RULING IN PART
RECOVERY INNOVATIONS, PLAINTIFF’S MOTION
INC., et al.,
FOR PARTIAL SUMMARY
JUDGMENT AND
Defendants.
GRANTING IN PART
AND RESERVING
RULING IN PART
DEFENDANTS’ MOTION
FOR SUMMARY
JUDGMENT
(Filed May 2, 2019)
This matter comes before the Court on Defendants
Jennifer Clingenpeel (“Clingenpeel”), Sami French
(“French”), Vasant Halarnakar (“Halarnakar”), and
Recovery Innovations, Inc.’s (“RI”) (collectively “Defendants”) motion for summary judgment, Dkt. 140,
and Plaintiff Kenneth Rawson’s (“Rawson”) motion
for partial summary judgment, Dkt. 136. The Court
has considered the pleadings filed in support of and
in opposition to the motions and the remainder of the
file and hereby rules as follows:

App. 69
I.

PROCEDURAL HISTORY

On May 8, 2017, Rawson ﬁled a complaint against
Defendants asserting numerous claims stemming from
his involuntary commitment and treatment by Defendants. Dkt. 1. On June 8, 2017, Rawson ﬁled an
amended complaint against Defendants asserting that
Defendants acted under color of law for purposes of 42
U.S.C. § 1983 and nine substantive claims as follows:
(1) violation of his Fourth Amendment rights, (2) violation of his substantive due process rights under the
Fourteenth Amendment, (3) violation of his procedural
due process rights under the Fourteenth Amendment,
(4) violations of the American with Disabilities Act
(“ADA”), 42 U.S.C. § 12132, (5) outrage, (6) false imprisonment, (7) medical malpractice, (8) violations of the
Washington Law Against Discrimination (“WLAD”),
RCW Chapter 49.60, and (9) violations of the Washington Consumer Protection Act (“CPA”), RCW Chapter
19.86. Dkt. 5.
On July 20, 2017, Defendants ﬁled a motion to dismiss arguing that (1) Rawson’s § 1983 claims should
be dismissed because Defendants are not state actors,
(2) Rawson’s ADA claim fails as a matter of law, and
(3) Defendants are entitled to immunity from Rawson’s
state law claims. Dkt. 9. On October 25, 2017, the
Court denied the motion concluding that (1) Rawson
had asserted sufficient allegations to support a “government nexus” between Defendants and state actors
and (2) Rawson has asserted sufﬁcient allegations to
support a theory that Defendants acted with gross negligence or bad faith, which overcomes the asserted

App. 70
immunity defense. Dkt. 17. The Court did not address
Rawson’s ADA claim.
On April 13, 2018, Rawson ﬁled a second amended
complaint. Dkt. 35. Rawson asserted 66 paragraphs of
factual allegations, a claim that Defendants acted under color of law, and ten substantive claims for relief.
Id. §§ 4.4-4.66, 5.1-5.11. Rawson’s substantive claims
are as follows: (1) violation of his Fourth Amendment
rights, (2) violation of his substantive due process
rights under the Fourteenth Amendment, (3) violation
of his procedural due process rights under the Fourteenth Amendment, (4) violations of the ADA, 42 U.S.C.
§ 12132, (5) outrage, (6) false imprisonment, (7) medical malpractice, (8) violations the WLAD, (9) violations
of the CPA, and (10) a claim for excessive detention in
violation of Washington’s Involuntary Treatment Act
(“ITA”), RCW 71.05.510. Id. §§ 5.2-5.11.
On September 5, 2018, Rawson ﬁled a motion for
partial summary judgment and Defendants ﬁled a motion for summary judgment. Dkts. 58, 63. On November 27, 2018, the Court granted the motions in part and
denied the motions in part, struck the impending trial,
and requested a joint status report on further proceedings regarding Rawson’s § 1983 claims. Dkt. 128.
Relevant to the instant motion, the Court found
that it was unable to address Rawson’s § 1983 claims
“because Rawson has failed to explain the gravamen of
his complaint with these detentions and what defendant violated his rights at what point during these detentions.” Dkt. 128 at 20-21.

App. 71
On January 31, 2019, Rawson ﬁled a supplemental
opening brief and Defendants ﬁled a motion for partial
summary judgment. Dkts. 136, 140. On February 19,
2019, the parties responded. Dkts. 144, 146. On February 22, 2019, the parties replied. Dkt. 148, 150.
II.

FACTUAL BACKGROUND

A. RI
RI is a non-profit corporation incorporated in Arizona that is registered and licensed to do business
in Washington. French, Clingenpeel and Halarnakar
were employees of RI during the relevant period. In
2014, RI contracted with Optum Pierce Regional
Support Network (“Optum”) to open and operate a
facility in Lakewood, Washington that provides evaluation and treatment (“E&T”) services. The Lakewood
facility is licensed to conﬁne individuals who are involuntarily committed on an emergency basis under the
ITA.
RI’s facility was located on the grounds of one of
Washington State’s main mental hospitals, Western
State Hospital. Dkt. 60-5 at 3. Halarnakar, RI’s medical director, also worked full-time as a doctor at Western State Hospital and part-time as medical director of
another E&T service. Dkt. 77-4 at 5.
B. Rawson
On March 5, 2015, Clark County Sheriff Ofﬁcer
Chris Nicholls detained Rawson and ordered a medical

App. 72
transport to Legacy Salmon Creek Hospital for a mental evaluation. The incident report provides as follows:
While working patrol I responded with
other deputies to the Bank of America in Hazel Dell. While en route, I was advised that
Kenneth Rawson had come back to the bank
today after being at the bank the day before.
While there the previous day, he had made
statements about getting guns and committing mass murder in order for the police to
take him seriously. Upon arrival I went in
with Deputies O’Dell and Mike Johnson Jr.
We made contact with Kenneth and I immediately placed my hands on his forearms and
told him not to move. He stated that he had a
gun on him and he would comply. I placed him
in handcuffs and advised him that he was being detained and not under arrest. Although
he did not physically resist me, he began to
yell to everyone in the bank that he had a gun
and that his rights were being violated. It was
about 11:00 am at the time and there were numerous employees and customers in the
building. Deputy Johnson stated that he had
taken possession of Ken’s loaded handgun and
cleared it safely. A loaded Glock magazine was
also found in his briefcase.
Ken was taken outside and interviewed
by other deputies while I went in and spoke
with both Dejanira (DJ) and Jason, who are
the Assistant Manager and Manager, respectively. DJ advised that she sat down with Ken
yesterday and he began to talk about all the
evil people who are against him. He told her

App. 73
that he would sit in front of his TV and “they”
would talk to him through his TV. He told her
“they” were doing this because of his gun. He
asked her if she knew what an AK-47 was but
she did not. He explained that an AK-47 was
used to shoot all the people in the theater in
Colorado. Ken explained to DJ that he was
having issues with his banks and his credit
and he felt it was a conspiracy against him.
He told DJ that all the evil people were making him crazy and that he might have to commit mass murder in order for the police to
take him seriously and look at all the evidence
he had. He explained again to DJ that all of
his phone conversations are being monitored
and his Veteran’s Affairs (VA) paperwork is
being intercepted.
Ken did have a valid concealed weapons
permit issued by the Clark County Sheriff ’s
Ofﬁce. I recommend that this license be reviewed.
When I went outside, I could see and hear
that Ken was talking to the other deputies
about the same topics of how people are
against him and how we all were going to pay.
He had several pieces of printed out materials
stapled together that he carried in his briefcase that he was concerned about. Per Sgt.
Trimble’s request, Kenneth was placed on
a mental hold and transported to Legacy
Salmon Creek Hospital via AMR ambulance.
I followed the ambulance there and assisted
in checking him in and advising the staff, to

App. 74
include the doctor on duty, of the situation and
his statements. I completed a hold form.
Dkt. 57-11 at 4-5.
After Rawson’s transport to the hospital, Clark
County Designated Mental Health Professional
(“DMHP”) Al Padilla (“Padilla”) evaluated Rawson.
On March 6, 2018, Padilla ﬁled a petition in state court
for the involuntary commitment of Rawson and a 72hour mental health evaluation. Dkt. 61-9.1 Padilla arranged for Rawson to be evaluated at RI. Dkt. 61-10.
When he arrived at RI, French, a Mental Health Professional, and Clingenpeel, an Advanced Registered
Nurse Practitioner, evaluated him. Dkt. 61-11. After
the evaluation, Clingenpeel prescribed some medication to address Rawson’s “thoughts.” Id. at 4. Rawson
refused the medication. Id.
Based on their evaluation of Rawson, Clingenpeel
and French completed a petition to involuntarily commit Rawson for fourteen days following the expiration
of the initial 72-hour commitment. The petition states
that Rawson is “gravely disabled” and “presents a likelihood of serious harm to others” and that he requires
“intensive, supervised, 24-hour care.” Dkt. 61-13. These
conclusions were based on the information in the police
report that people were talking to Rawson through the
television and the bank employee’s comment that Rawson stated he would have to commit mass murder, so
1

The parties have redacted a signiﬁcant amount of information that is publicly available. For example, this allegation appears in Rawson’s complaint yet is redacted in his motion.

App. 75
the police would listen to him. Id. Regarding actual
treatment at RI, the petition states that Rawson “continues to deny any problem other than the bank and
police misunderstanding” and that he “continues to
focus on being a victim and is passive in his participation in treatment.” Id. On March 10, 2015, the court
granted the petition and Rawson was involuntarily
committed for the additional fourteen days.
On March 14, 2015, Medical Director Halarnakar
met Rawson for the ﬁrst time. Dkt. 61-6 at 8-9. Halarnakar’s notes of this interaction state that Rawson was
calm, cooperative and polite, but that his speech was
pressured. Dkt. 61-12 at 6. Rawson told Halarnakar
that he felt like his freedom had been taken away, that
he didn’t have any symptoms of schizophrenia, and
that he didn’t hear any voices. Id. Halarnakar wrote
that Rawson needed to keep taking his medications after discharge and that the issue of Rawson’s weapon
with the Clark County Sheriff needed to be resolved
before Rawson could be discharged. Id.
On March 15, 2015, RI ﬁred Clingenpeel because
her charting practices were not meeting the appropriate standard. Dkt. 61-15. With Clingenpeel gone,
Halarnakar became Rawson’s attending provider. Dkt.
61-6 at 13. On March 19, 2015, Halarnakar met with
Rawson for a second time. In the notes from this
meeting, Halarnakar documented two objective observations: (1) that Rawson became argumentative and
denied having a mental illness or needing antipsychotic medications and (2) that he denied suicidal or
homicidal ideations. Dkt. 61-12 at 7. Based on these

App. 76
observations, Halarnakar concluded that Rawson had
pressured speech, was very paranoid, had no insight,
and needed further stabilization. Id. Halarnakar prescribed another medication and discussed with French
the need to ﬁle a petition for an additional 90-day detention. Id.
Pursuant to Halarnakar’s request, French drafted
a petition that day. The petition requested an additional 90 days of involuntary treatment at RI. Dkt. 6116. The petition alleged that Rawson had “threatened,
attempted, or inﬂicted physical harm upon the person
of another or him/herself, or substantial damage to
property of another during the period in custody for
evaluation and treatment, and presents a likelihood of
serious harm.” Id. Halarnakar and French declared
that
[Rawson], continues to display signs of
paranoia and delusions with guarded interactions with others. He lacks any connection to
the reality of his situation and the reasons
that brought him to the evaluation and treatment center.
***
[Rawson] attends groups and interacts
occasionally outside of group time. He spends
much of his time isolating in his room. At
other times has threatened other guests when
he does not believe he is being observed. [Rawson] does not acknowledge his mental illness
and continues to blame his detainment on his
clothing that he wore to the bank.

App. 77
Id. They claimed that Rawson required “intensive, supervised, 24-hour care” and that the court should involuntarily commit him to Western State Hospital. Id.
On March 23, 2015, Rawson requested a jury trial
on the petition. Dkt. 61-17. On March 24, 2015, the 14day detention order expired, but RI detained Rawson
while he awaited trial on the extended petition. On
March 25, 2018, French emailed Pierce County Deputy
Prosecuting Attorney Ken Nichols (“Nichols”) informing him that the VA had a bed available for Rawson.
Dkt. 61-19 at 2. Nichols replied as follows:
By all means end [sic] him to the VA and
get him off our radar!
I don’t really want to try this case.
I’m not sure there is enough to convince a
jury by clear cogent and convincing evidence
that he needs to be at Western State.
Id. Despite this communication, Rawson remained at
RI.
On April 9, 2015, Nichols informed French that Dr.
James Manly (“Dr. Manly”), an expert psychiatrist,
would come to RI to evaluate Rawson for trial. Id. at
46. The next day, Dr. Manly met with Rawson for three
and a half hours. Dr. Manly’s report provides as follows:
Mr. Rawson presented for his appointment with good hygiene and grooming. His
responses to the interview questions were
cogent, detailed, lineal, and on topic. He

App. 78
accurately described the events that led to his
ﬁrst psychiatric admission. He did not become
defensive during the interview. He did report
a minor level of frustration about why he continued to be hospitalized. Given the facts to
this matter, his lack of current psychiatric
symptoms, and his lack of mental health history, his expressed frustration did not strike
me as unreasonable.
Mr. Rawson did not evidence pressured
speech, tangential thinking, or obvious thinking errors. He did not evidence or report
symptoms related to psychosis or a mood disorder. He did not report or evidence anger. In
fact, throughout the interview Mr. Rawson
maintained his composure and did not evidence or report thoughts of suicide or selfharm. He did not report or evidence a plan or
desire to hurt another person.
As part of the interview, I administered
the Personality Assessment Inventory (PAD.
The validity indicators noted a mild level of
defensiveness. His level of defensiveness is
quite typical within forensic settings and not
surprising in this situation. He reported some
concern about his health, which coincided
with his self-report of a spinal injury and bilateral sciatica. The resulting proﬁle PAI was
within normal limits. The scales related to
mood, psychosis, and impulsivity were not signiﬁcantly elevated.
I have also spoken to his father who has
traveled from Mr. Rawson’s home state of

App. 79
Texas. Mr. Rawson reported his son had no
mental health history or history of violence to
others.
In summary, I do not ﬁnd Mr. Rawson
presently at risk to harm himself or being a
danger to others.
Id.
On April 16, 2015, Nichols emailed Dr. Manly’s report to Halarnakar and French. Dkt. 61-19 at 32. Nichols followed up with an email providing the statutory
grounds for involuntary commitment and requesting
that Halarnakar and French provide speciﬁc statements that Rawson made at RI that were threatening.
Id. at 10. Halarnakar replied that Rawson “has refused
to talk lately.” Id. at 9. Nichols’s response requested
clariﬁcation that Halarnakar was forcefully medicating Rawson every night and, if so, that could explain
why Rawson presented so well to Dr. Manly. Id. Halarnakar conﬁrmed the nightly injections and stated that
they did not have any “threatening statements.” Id.
Halarnakar also wrote that Rawson told them that “he
won’t hurt anyone.” Id. Nichols wrote that he knew
Rawson’s “symptoms have subsided because he’s been
on meds, but without them maybe he would be gravely
disabled quickly.” Id. at 11. Halarnakar replied “[t]hat
is the only argument we have.” Id.
On April 27, 2015, Halarnakar wrote to Nichols informing him of a mutual resolution to the situation.
Halarnakar stated that Rawson had agreed to sign a
voluntary commitment form, and, in return, RI was

App. 80
going to transport Rawson to the Portland VA so that
he could be evaluated and, if necessary, treated at that
inpatient facility. Dkt. 6112 at 9-10. Halarnakar stated
that if Nichols agreed with the plan, then RI would
transport Rawson the following day. Id. at 10. On April
29, 2015, RI discharged Rawson.
On August 16, 2016, the Washington Court of Appeals held that Rawson’s “detention was improper because [Padilla] did not consult with an examining
physician as required by RCW 71.05.154.” In re Det. of
K.R., 195 Wn. App. 843, 846 (2016).
In support of his claims, Rawson has submitted
the expert report of Dr. Jeffrey Geller (“Dr. Geller”).
Dkt. 78. In short, Dr. Geller opines that RI’s records do
not support the decisions to involuntarily commit Rawson, RI’s records do not support the medical decision to
forcibly medicate Rawson, less restrictive alternatives
existed, and RI’s staff was not qualiﬁed to evaluate and
treat Rawson. Id. at 81-82.
On the other hand, Defendants have submitted
the expert report of Dr. Mark R. McClung (“Dr.
McClung”). Dkt. 48-1. Dr. McClung opines that “[t]he
length of time Mr. Rawson remained at Recovery Innovations was not related to any deﬁcits in his psychiatric treatment.” Id. at 4. He also opines that Rawson’s
entire period of involuntary commitment was medically justiﬁed. Id. For example, he declares that
The Petition for 90-day commitment (completed by clinicians at Recovery Innovations)
provides information to meet one of the two

App. 81
possible requirements for a 90-day commitment (threatened violence), as well as providing a relevant diagnosis and an opinion that
[a least restrictive alternative] is not recommended.
Id.
III.

DISCUSSION

A. Summary Judgment Standard
Summary judgment is proper only if the pleadings, the discovery and disclosure materials on ﬁle, and
any afﬁdavits show that there is no genuine issue as to
any material fact and that the movant is entitled to
judgment as a matter of law. Fed. R. Civ. P. 56(c). The
moving party is entitled to judgment as a matter of law
when the nonmoving party fails to make a sufﬁcient
showing on an essential element of a claim in the case
on which the nonmoving party has the burden of proof.
Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986). There
is no genuine issue of fact for trial where the record,
taken as a whole, could not lead a rational trier of fact
to ﬁnd for the nonmoving party. Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586 (1986)
(nonmoving party must present speciﬁc, signiﬁcant
probative evidence, not simply “some metaphysical
doubt”). See also Fed. R. Civ. P. 56(e). Conversely, a
genuine dispute over a material fact exists if there is
sufﬁcient evidence supporting the claimed factual dispute, requiring a judge or jury to resolve the differing
versions of the truth. Anderson v. Liberty Lobby, Inc.,

App. 82
477 U.S. 242, 253 (1986); T.W. Elec. Serv., Inc. v. Pac.
Elec. Contractors Ass’n, 809 F.2d 626, 630 (9th Cir.
1987).
The determination of the existence of a material
fact is often a close question. The Court must consider
the substantive evidentiary burden that the nonmoving party must meet at trial—e.g., a preponderance of
the evidence in most civil cases. Anderson, 477 U.S. at
254; T.W. Elec. Serv., Inc., 809 F.2d at 630. The Court
must resolve any factual issues of controversy in favor
of the nonmoving party only when the facts speciﬁcally
attested by that party contradict facts speciﬁcally attested by the moving party. The nonmoving party may
not merely state that it will discredit the moving
party’s evidence at trial, in the hopes that evidence can
be developed at trial to support the claim. T.W. Elec.
Serv., Inc., 809 F.2d at 630 (relying on Anderson, 477
U.S. at 255). Conclusory, nonspeciﬁc statements in afﬁdavits are not sufﬁcient, and missing facts will not be
presumed. Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 871,
888-89 (1990).
B. 42 U.S.C. § 1983
To prevail under § 1983, a plaintiff must show
(1) that defendants deprived him of a right secured by
the Constitution or laws of the United States and
(2) that, in doing so, Defendants acted under color of
state law. Flagg Bros., Inc. v. Brooks, 436 U.S. 149, 15657 (1978).

App. 83
In this case, the parties dispute whether Defendants acted under color of law and Defendants challenge the merits of Rawson’s civil rights claims. Based
on the extended discovery, Rawson has speciﬁcally
identified three claims as follows: (1) a violation of
his Fourteenth Amendment substantive due process
rights when Defendants involuntarily committed him
without legal justiﬁcation, Dkt. 141 at 2-5, (2) a violation of his Fourth Amendment right to be free from an
unreasonable seizure “[w]hen the Defendants knowingly, intentionally, or with a reckless disregard for
the truth provided false information to the Superior
Court,” id. at 6-7, and (3) a violation of his Fourteenth
Amendment substantive due process rights when
Halarnakar ordered forced medication, id. at 7-8. The
Court will address the color of law issues ﬁrst and then
proceed to the merits.
1. Under Color of Law
As a general rule, it is presumed that actions by
private parties are not taken under color of state
law. Florer v. Congregation Pidyon Shevuyim, N.A., 639
F.3d 916, 922 (9th Cir. 2011) (“We start with the presumption that conduct by private actors is not state
action.”). However, “[i]f the [Constitution] is not to be
displaced, . . . its ambit cannot be a simple line between States and people operating outside formally
governmental organizations, and the deed of an ostensibly private organization or individual is to be treated
sometimes as if a State had caused it to be performed.”

App. 84
Brentwood Acad. v. Tennessee Secondary Sch. Athletic
Ass’n, 531 U.S. 288, 295 (2001).
In this case, Rawson asserted state action under
two theories: (1) government nexus and (2) public
function. Dkt. 35, ¶ 5.1. The Court granted Defendants’ previous summary judgment motion on the public function test. Dkt. 128 at 14-15. Thus, the Court
turns to the government nexus test. “In order to be considered state action, when a private actor participates
in a governmental act, the court must ﬁnd a sufﬁciently close nexus between the state and the private
actor ‘so that the action of the latter may be fairly
treated as that of the State itself.’ ” Jensen v. Lane Cty.,
222 F.3d 570, 575 (9th Cir. 2000) (quoting Jackson v.
Metropolitan Edison Co., 419 U.S. 345, 350 (1974)).
“Faithful adherence to the ‘state action’ requirement
. . . requires careful attention to the gravamen of the
plaintiff ’s complaint.” Blum v. Yaretsky, 457 U.S. 991,
1003 (1982). The Court will address state action as to
each of Rawson’s claims.
a. Involuntary Commitment
In its previous order, the Court stated “[t]he parties seem to implicitly agree that the facts of this case
fall somewhere between the facts of Jensen, 222 F.3d
570, and the facts of Hood v. King Cty., C15-828RSL,
2017 WL 979024, at *13 (W.D. Wash. Mar. 14, 2017),
aff ’d sub nom. Hood v. Cty. of King, 17-35320, 2018 WL
3462496 (9th Cir. July 18, 2018).” Dkt. 128 at 16. Rawson “does not agree at all” with this statement, and

App. 85
instead contends that “Jensen, not Hood or Jackson,
and not somewhere in between, provides the standard
by which this case should be evaluated.” Dkt. 136 at 4,
6. The Court will ﬁrst summarize the authorities and
then apply them to the facts of this matter.
In Jensen, the plaintiff was arrested after pointing his gun out a car window at a pedestrian. 222
F.3d at 572. Based on this incident and other information regarding plaintiff ’s threatening behavior, a
public mental health specialist consulted with another public mental health specialist and Jeffrey M.
Robbins, M.D. (“Dr. Robbins”), a private specialist
under contract with the county. Id. at 572-73. After
these consultations, the public mental health specialist
recommended that plaintiff be detained for evaluation
at a public mental health hospital. Id. at 573. Dr. Robbins signed an order detaining plaintiff without personally evaluating the plaintiff and based his decision
entirely on the police reports and information gained
from the public doctors. Id. Dr. Robbins briefly met
with plaintiff over the course of the next three days of
plaintiff ’s detention, but the plaintiff “did not cooperate in the examination, so Dr. Robbins again relied
heavily on police reports and information obtained
from [the public doctors] in deciding to continue [plaintiff ’s] detention.” Id. On the fourth day of detention, a
public doctor evaluated plaintiff and concluded that
there was insufﬁcient evidence to proceed with requesting a court order for additional detention. Id. Dr.
Robbins agreed with this conclusion, and the plaintiff
was released. Id.

App. 86
Dr. Robbins moved for summary judgment on the
plaintiff ’s § 1983 claim arguing that he did not act under color of law. Id. The district court granted the motion, but the Ninth Circuit reversed. Id. at 573, 575-76.
The Ninth Circuit found and concluded as follows:
The record is clear that Dr. Robbins and
the County through its employees have undertaken a complex and deeply intertwined process of evaluating and detaining individuals
who are believed to be mentally ill and a danger to themselves or others. County employees initiate the evaluation process, there is
signiﬁcant consultation with and among the
various mental health professionals (including both [private] psychiatrists and county
crisis workers), and [the private employer]
helps to develop and maintain the mental
health policies of [the public mental health
hospital]. We are convinced that the state has
so deeply insinuated itself into this process
that there is “a sufﬁciently close nexus between the State and the challenged action of
the [defendant] so that the action of the latter
may be fairly treated as that of the State itself.” Jackson, 419 U.S. at 350.
Jensen, 222 F.3d at 575.
On the other hand, in Hood, this Court concluded
that the private actors did not act under color of law.
Plaintiff Luci Hood was detained by deputies after
they observed her approach other individuals in a
threatening way. Hood, 2017 WL 979024 at *3. The
deputies called an ambulance, which transported Ms.

App. 87
Hood to a private hospital for an evaluation under the
ITA. Id. Although the facts regarding the origination
of Ms. Hood’s detention do not appear in the published
order, in the public, redacted version of the motion for
summary judgment, the defendants assert that a team
of two public DMHPs personally evaluated Ms. Hood
at the private hospital and then ﬁled a petition for a
72-hour involuntary hold. Hood, C15-828RSL, Dkt. 68
at 6-7. Once that hold was in place, Ms. Hood was
transferred to another private hospital for treatment
and evaluation. Ms. Hood alleged that the new hospital
failed to provide an independent assessment of her
mental health and continued the involuntary hold
based purely on the DMHP’s petition. Id., Dkt. 1-1 at
10-11. Based on these facts, the Court found and concluded as follows:
A sufﬁciently close nexus does not exist in
this case. In Jensen v. Lane County, 222 F.3d
570 (9th Cir. 2000), the Ninth Circuit held
that where a private medical provider and a
county through its employees “have undertaken a complex and deeply intertwined process of evaluating and detaining individuals
who are believed to be mentally ill and a danger to themselves or others,” the government
has “so deeply insinuated itself into this process that there is ‘a sufﬁciently close nexus between the State and the challenged action of
the defendant so that the action of the latter
may fairly be treated as that of the State itself.’ ” Jensen, 222 F.3d at 575 (quoting Jackson, 419 U.S. at 350). Ms. Hood argues that
Jensen controls here, but the Court disagrees.

App. 88
In Blum v. Yaretsky, 457 U.S. 991 (1982),
the U.S. Supreme Court found no state action
where the challenged medical determinations
were “made by private parties according to
professional standards that are not established by the State.” Blum, 457 U.S. at 1008.
In Jensen, the Ninth Circuit distinguished
Blum on the grounds that in Jensen, though
the committing physician made the medical
judgment under which the plaintiff was
detained, “[c]ounty employees initiate[d] the
evaluation process, [and] there [was] signiﬁcant consultation with and among the various
mental health professionals (including both
[private] psychiatrists and county crisis workers),” such that the state’s involvement in the
decision-making process overrode the private
provider’s “purely medical judgment.” Jensen,
222 F.3d at 575.
Such is not the case here. It is true that
county law enforcement initiated Ms. Hood’s
ITA process; that county DMHPs relied significantly on the reports of hospital staff in conducting the assessment that led to Ms. Hood’s
72-hour detention; that the hospital boarded
Ms. Hood after the county DMHPs initiated
the 72-hour detention; and that a hospital
psychiatrist declined to release Ms. Hood
apparently out of deference to the county
DMHPs’ detention recommendation. But unlike in Jensen, where the private practitioner
was operating under contract with the county,
222 F.3d at 573, the private hospitals in this
case were fulﬁlling their own statutory responsibilities under the ITA rather than a

App. 89
contractual responsibility to King County.
Moreover, the plaintiff in Jensen was detained
in a county psychiatric hospital, then discharged to the county jail, id., while in this
case Ms. Hood was detained exclusively at private hospitals and then released.
The facts here reveal sustained and routine cooperation between King County and
the hospitals, but they do not show that the
county’s involvement overrode the hospital
staff ’s medical judgment such that the hospitals’ actions can fairly be treated as those of
the government. Accordingly, the hospitals
were not acting under color of law, and Ms.
Hood’s constitutional claims against the hospitals for deprivation of liberty and privacy
must be dismissed.
Hood, 2017 WL 979024 at *12-13.
Under these authorities, the Court disagrees with
Rawson that Defendants were state actors at all times
relevant to the complaint. Although Rawson presents
very persuasive arguments to the contrary, the Court
ﬁnds that the ITA’s grant of authority to private parties to provide medical care and to petition courts for
extended involuntary detention does not, in and of itself, create a sufﬁcient nexus such that the private actors can be fairly treated as state actors. Rawson
provides a chart comparing and contrasting the duties
of an E&T facility versus a private hospital. Dkt. 136
at 5. While the chart and the accompanying discussion are persuasive, the Court has concluded that
neither the medical care of involuntary detainees nor

App. 90
petitioning the government to involuntarily detain a
person are “both traditionally and exclusively governmental.” Dkt. 128 at 15. The medical care aspect is
fairly clear in that the ITA and numerous published
authorities provide that private parties may care for
such detainees with no connection to state action other
than the state agent presented the patient to the private entity. See, e.g., Hood, 2017 WL 979024 at *12-13.
Similarly, the ITA provides that immediate family
members may also petition the courts for involuntary
commitment. RCW 71.05.201. Thus, in the absence of
what may be aptly characterized as a facial ﬁnding of
state action, the Court considers the speciﬁc factual
circumstances presented under the standard of Blum
and Jensen.
Under those authorities, the Court agrees with the
analysis in Hood that Jackson and Blum set the standard for a sufﬁcient nexus and that Jensen provides an
exception. The Court must “start with the presumption
that conduct by private actors is not state action.”
Florer, 639 F.3d at 922. In Blum, the plaintiffs failed to
overcome this presumption because the challenged actions “ultimately turn on medical judgments made by
private parties according to professional standards
that are not established by the State.” 457 U.S. at 1008.
Similarly, in Jackson, the Court stated that the “State
[must be] so far insinuated into a position of interdependence with the [private party] that it was a joint
participant in the enterprise.” 419 U.S. at 357-58. The
Jensen court held that the “real issue . . . is whether
the state’s involvement in the decision-making process

App. 91
rises to a level that overrides the ‘purely medical judgment’ rationale of Blum.” 222 F.3d at 575. Thus, Defendants are presumed to not be state actors unless
and until Rawson establishes government involvement
sufﬁcient to override the purely medical judgment of
the private individual.
In this case, Rawson alleges that his rights were
violated for the duration of his entire 55-day detention.
Dkt. 141 at 2. The Court disagrees for two reasons.
First, the facts do not establish that RI is a government
agent regardless of the patient or circumstance of admission. The Court agrees with Rawson that the fact
that RI is under contract with the County and the fact
that RI is located on State owned property are facts in
favor of RI’s dependence on the government. At most,
however, these facts establish what entity pays the
bills and what entity provides the location for the facility. They do not in and of themselves indicate coercion sufﬁcient to overcome the medical personnel’s
independent medical judgment. The Court ﬁnds that
there must be something more. See, e.g., Hood, 2017
WL 979024, at *13 (“The facts here reveal sustained
and routine cooperation between King County and the
hospitals, but they do not show that the county’s involvement overrode the hospital staff ’s medical judgment such that the hospitals’ actions can fairly be
treated as those of the government.”).
Second, the facts surrounding Rawson’s admission
and initial detention at RI also fail to establish a sufficient nexus for state action. Rawson argues that
the “violation of his constitutional rights began when

App. 92
Clingenpeel concluded her purported evaluation but
did not release him.” Dkt. 136 at 8. While Rawson
might show that Clingenpeel’s judgment fell below the
applicable standard of care, Rawson fails to establish
that her decisions were in any way overridden by a
state actor. At most, she relied on the police reports and
DHMP Padilla’s reports, but such reliance does not establish coercive conduct by those state actors. In fact,
Rawson fails to submit any evidence to establish that
RI’s staff consulted or interacted with Padilla after
Rawson was admitted to RI. There can be no “jointenterprise” if the private actor is making medical decisions without contemporaneous involvement by a state
actor. Therefore, the Court grants Defendants’ motion
on the portion of Rawson’s claim relating to his initial
detention at RI.
The next period of detention was pursuant to the
14-day petition Clingenpeel and French sent to Nichols. Similar to the initial detention, Rawson has failed
to submit evidence to establish that either Clingenpeel
or French’s medical judgment were coerced or overridden by any state actor. Even if they relied only on the
reports from state actors instead of personal evaluations of Rawson, such evidence does not establish that
their medical judgments were overridden by the involvement of state actors. A subsequent abdication of a
medical duty may not be imputed to the government
based solely on previous government reports, no matter how damning those reports may be. Moreover, Rawson fails to identify any evidence establishing that
Padilla interacted with RI’s staff regarding the 14-day

App. 93
petition, let alone to a level that overrode Clingenpeel
or French’s medical judgment. The Court also ﬁnds
that Rawson’s evidence of RI’s policy or practice does
not create a sufﬁcient nexus to support state action.
Rawson has submitted evidence that it was RI’s policy
or practice to ﬁle a 14-day petition for every patient.
Dkt. 77-2 at 31. Although troubling and strong evidence of a failure to allow independent medical judgment, Rawson has failed to submit any evidence to
establish that the County or any state actor mandated
or inﬂuenced RI’s alleged policy or practice. Thus, Rawson has failed to establish a nexus between the 14-day
petition and a state actor, and the Court grants Defendants’ motion on the portion of Rawson’s claim relating to the 14-day petition.
Towards the end of the 14-day petition, Halarnakar concluded that Rawson required further detention. The Court notes that “[w]hether a private party
engaged in state action is a highly factual question.”
Brunette v. Humane Soc’y of Ventura Cty., 294 F.3d
1205, 1209 (9th Cir. 2002), as amended on denial of
reh’g and reh’g en banc (Aug. 23, 2002) (citing Howerton v. Gabica, 708 F.2d 380, 383 (9th Cir. 1983)). As
applied to this case, the Court questions whether
any reasonable juror could conclude that Nichols
involvement overrode Halarnakar’s independent medical judgment after Halarnakar ﬁled the 90-day petition. On March 19, 2015, French drafted a petition
for an additional 90 days of conﬁnement at Western
State Hospital and sent it to Nichols. Halarnakar and
French declared under penalty of perjury that Rawson

App. 94
“present[ed] a likelihood of serious harm.” Dkt. 61-16.
They did not conclude that Rawson was gravely disabled, which is a separate ground to move for additional involuntary conﬁnement. Id.; RCW 71.05.280(4).
On March 23, 2015, after Nichols ﬁled the petition in
court, Rawson requested a jury trial on the petition.
Dkt. 61-17. Two days later, French emailed Nichols informing him that the VA in Oregon had a bed available
for Rawson, which was an alternative solution for Rawson to receive further treatment. Dkt. 61-19 at 2. Nichols replied that he “didn’t really want to try [the] case”
because he was “not sure there [was] enough to convince a jury by clear cogent and convincing evidence
that he needs to be at Western State.” Id. Despite the
prosecutor’s equivocation as to the strength of the evidence supporting Rawson’s conﬁnement, Rawson remained involuntarily committed.
On April 10, 2015, Rawson met with Dr. Manly, an
expert retained by Rawson’s attorney. After meeting
with Rawson for a number of hours, Dr. Manly concluded that he did not “ﬁnd Mr. Rawson presently at
risk to harm himself or being a danger to others.” Id.
at 33.
After Dr. Manly’s report, Nichols began a chain
of communication with Halarnakar and French that
evidences an increased interaction between the state
and private actors. Nichols emailed Halarnakar and
French requesting speciﬁc information regarding the
threatening statements Rawson made while detained
at RI. Id. at 10. Halarnakar wrote back that Rawson
had “refused to talk lately.” Id. at 9. Nichols responded

App. 95
that the daily forced medical injections would explain
why Rawson was able to “present well” to Dr. Manly
and asked French for any documented threatening
statements. Id. Halarnakar responded that RI did not
have any threatening statements. Id. In a separate
email, Nichols wrote as follows:
We didn’t allege grave disability
Perhaps we should?
I know his symptoms have subsided because he’s been on meds, but without them
maybe he would be gravely disabled quickly.
It’s always better to have a couple of theories, as opposed to all our eggs in one basket.
Id. at 11. It seems possible that a reasonable juror
could read that email and reach the conclusion that
Nichols offered the medical diagnosis of “grave disability” and provided the underlying medical reasoning for
that diagnosis. In reply, Halarnakar wrote “Yes. That
is the only argument we have.” Id. In sum, Nichols initially questioned the medical evidence to continue
Rawson’s involuntary detention, Nichols suggested an
alternative diagnosis with supporting reasons, and
Halarnakar agreed to that diagnosis. These facts appear to favor Rawson’s argument that state action was
present.
On the other hand, Nichols declares that his role
was limited. He states that his interactions with RI’s
staff “properly included discussions about the standards of proof that would apply at the trial, the kind of

App. 96
evidence that would be useful at trial, and the hypothetical outcomes of the trial.” Dkt. 72, ¶ 5. He also
declares that he never “intended to inﬂuence Dr. Halarnakar’s professional judgment regarding whether
Mr. Rawson was a danger to others, whether he was
gravely disabled. . . . ” Id. ¶ 6. The Court recognizes Defendants’ concern that a ﬁnding of state action in this
case could hamper prosecutor’s interactions with private medical providers in the future. However, the
facts of this case appear to be sufﬁciently unique in
that the prosecutor acknowledged he had a weak case
based on the ﬁled petition and was seeking additional
grounds to present at trial. Regardless, the parties
should be prepared to address this issue at oral argument.
Furthermore, the Court has identiﬁed two outstanding issues of law that the parties should be prepared to address. First, it is unclear whether the state
actor’s involvement actually overrode a medical judgment or whether the involvement must rise to a level
sufﬁcient to conclude that the coercion would overcome
an independent judgment.
Second, Defendants dance around the issue of causation but never squarely address it with applicable
authorities. The question becomes even if Nichols overrode Halamakar’s professional judgment by coercing
Halamakar to agree to a diagnosis of Rawson being
gravely disabled, how did this result in violations of
Rawson’s rights? As far as the Court can tell, the
90-day petition was not amended. Similarly, it only
appears that Nichols and Halarnakar had a plan to

App. 97
present the gravely disabled theory at an upcoming
trial but never actually presented or relied on that theory to Rawson’s detriment. In other words, even if all
the facts establish state action in preparing for the
trial, how did this hypothetical state action result in a
violation of Rawson’s due process rights? The parties
should be prepared to address these questions. Based
on the outstanding questions, the Court reserves ruling on the parties’ motions on this aspect of Rawson’s
claim.
b. Deliberate Fabrication of Evidence
Rawson alleges that French and Clingenpeel violated his rights when they “knowingly, intentionally, or
with reckless disregard for the truth, presented false
information to the Superior Court in support of their
14-day petition.” Dkt. 141 at 6. Rawson, however, fails
to submit any evidence to establish that French or
Clingenpeel was acting under color of law when they
submitted the 14-day petition. At most, they relied on
Padilla’s report and the police report to support the petition. The Court ﬁnds that reliance on such reports
does not establish a sufﬁcient nexus to overcome the
presumption that private parties are not state actors.
Therefore, the Court grants Defendants’ motion and
denies Rawson’s motion on this claim.
c. Forced Medication
Rawson alleges that “Halarnakar’s decision to have
[Rawson] forcibly injected with powerful antipsychotic

App. 98
medications every night for nearly one month constituted conscious indifference in violation of his
Substantive Due Process rights under the Fourteenth
Amendment.” Dkt. 141 at 7. Rawson, however, fails
to establish that Halarnakar’s decision to force medicate was in any way inﬂuenced by a state actor or that
his independent medical judgment was overborn by a
state actor. Although Rawson asserts that Nichols
knew that Halarnakar ordered Rawson to be forcefully
medicated and supported that decision, there is no evidence to establish that Nichols’s actions overcame
Halarnakar’s medical judgment. Dkt. 136 at 18-19. Instead, Halarnakar had issued the order to force medicate before Nichols became deeply involved in the
matter. Therefore, the Court grants Defendants’ motion and denies Rawson’s motion on this claim.
2. Merits
A civil commitment constitutes a signiﬁcant deprivation of liberty that requires due process protection.
Addington v. Texas, 441 U.S. 418, 425 (1979). Substantive due process requires “that the nature and duration
of commitment bear some reasonable relation to the
purpose for which the individual is committed.” Jackson v. Indiana, 406 U.S. 715, 738 (1972).
In this case, Defendants do not challenge the underlying merits of Rawson’s remaining due process
claim or whether he has sufﬁcient evidence on each element of the claim. Instead, Defendants argue that
Rawson fails to establish a claim against RI as an

App. 99
entity or Halarnakar as a supervisor based on the
conduct of RI’s employees and that Rawson’s claims
are barred by the Noerr–Pennington doctrine and the
Washington litigation privilege. Dkt. 140 at 9–16. Regarding the claimed immunities, Defendants fail to
show that either applies to the facts of this case. No
doctrine immunizing ﬁlings with the Court seems applicable to the actions forming the basis of Rawson’s
remaining due process claim. Therefore, the Court denies Defendants’ motion on these asserted immunities.
Regarding Rawson’s supervisor liability claim
against Halarnakar, a supervisor may “be liable in his
individual capacity for his own culpable action or inaction in the training, supervision, or control of his subordinates; for his acquiescence in the constitutional
deprivation; or for conduct that showed a reckless or
callous indifference to the rights of others.” Keates v.
Koile, 883 F.3d 1228, 1243 (9th Cir. 2018) (quoting
Starr v. Baca, 652 F.3d 1202, 1208 (9th Cir. 2011)). If
the Court ﬁnds state action in relation to the 90-day
petition, Rawson has submitted evidence that at least
establishes a question of fact whether Halarnakar is
liable for the actions of French in drafting the 90-day
petition as well as continuing Rawson’s conﬁnement
despite medical evidence suggesting that it was not
medically necessary to continue Rawson’s involuntary
conﬁnement. Therefore, the Court reserves ruling on
this issue.
Regarding RI’s liability, Rawson’s claim is based
on RI’s custom or policy and RI’s failure to train. Dkt.
141 at 4-5. Rawson’s policy or custom claim is focused

App. 100
on the allegations and evidence that RI directs its staff
to file a 14-day petition for every patient admitted to its
facility. Dkt. 146 at 13-18. The Court grants Defendants’
motion on this issue because the Court has found that
RI’s staff was not acting under color of law when it ﬁled
the 14-day petition to involuntary commit Rawson.
As to the failure to train, Rawson must show that
(1) he was deprived of a constitutional right, (2) RI had
a training policy that amounts to deliberate indifference to the constitutional rights of the persons with
whom RI’s staff are likely to come into contact; and
(3) Rawson’s constitutional injury would have been
avoided had the RI properly trained those staff members. Blankenhorn v. City of Orange, 485 F.3d 463, 484
(9th Cir. 2007). If the Court ﬁnds state action, then
Rawson has submitted evidence on each element of
this claim. Rawson has established a question of fact
as to the deprivation of his due process right. Dr. Geller
opines that RI failed to properly train staff to document or treat the patients that they come into contact
with, which results in a deprivation of due process
rights. Dkt. 78 at 80 (“The notes in Rawson’s chart
were written almost exclusively by staff not licensed to
prescribe medication or conduct psychiatric evaluations. [Medical health providers] were mostly social
workers and lacked prescribing authority and an adequate educational background in psychiatry”). Finally,
if RI had properly trained its staff, Rawson’s prolonged
detention could have been avoided because the staff
would have been focused on the medical diagnosis of Rawson instead of RI’s liability if they released Rawson.

App. 101
See, e.g., Dkt. 61-19 at 20 (“I just talked with Dr. [Halarnakar] he wants to go through with the Jury Trial. Kenneth is not taking his medications or participating in
treatment in any meaningful way. He, like me is worried that if Kenneth is released and shoots someone we
do not want to be held liable.”) (email from RI’s nonmedical management staff to Nichols). Therefore, the
Court reserves ruling on Rawson’s claim against RI for
entity liability in the deprivation of his due process
rights.
IV.

ORDER

Therefore, it is hereby ORDERED that Defendants’
motion for summary judgment, Dkt. 140, is GRANTED
in part and Rawson’s motion for partial summary
judgment, Dkt. 136, is DENIED in part. Rawson’s
fabrication of evidence and forced injection claims are
dismissed with prejudice for failure to establish state
action. Rawson’s due process claim based on wrongful
detention is dismissed to the extent the claim is based
on his original 72-hour detention and his detention
pursuant to the 14-day petition. The Court RESERVES
ruling on Rawson’s due process claim for detention
past the expiration of the 14-day petition.
Dated this 2nd day of May, 2019.
/s/ Benjamin H. Settle
BENJAMIN H. SETTLE
United States District Judge

App. 102
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
KENNETH RAWSON,

CASE NO. C17-5342 BHS

Plaintiff,

ORDER DENYING IN
PART PLAINTIFF’S
v.
MOTION FOR PARTIAL
RECOVERY INNOVATIONS, SUMMARY JUDGMENT
INC., et al.,
AND GRANTING IN
PART DEFENDANTS’
Defendants.
MOTION FOR SUMMARY
JUDGMENT
(Filed May 9, 2019)
This matter comes before the Court on Defendants
Jennifer Clingenpeel (“Clingenpeel”), Sami French
(“French”), Vasant Halarnakar (“Halarnakar”), and
Recovery Innovations, Inc.’s (“RI”) (collectively “Defendants”) motion for summary judgment, Dkt. 140,
and Plaintiff Kenneth Rawson’s (“Rawson”) motion for
partial summary judgment, Dkt. 136. The Court has
considered the pleadings ﬁled in support of and in opposition to the motions and the remainder of the ﬁle
and hereby rules as follows:
I. PROCEDURAL AND
FACTUAL BACKGROUND
The parties and the Court are very familiar with
the procedural history and the facts of this matter.
Thus, the Court will only state some of the facts

App. 103
relevant to the remaining portions of the parties’ crossmotions.
On March 19, 2015, Halarnakar and French submitted a 90-day petition to continue Rawson’s involuntary conﬁnement. Dkt. 61-16. On March 23, 2015,
Rawson requested a jury trial on the petition. Dkt. 6117. On March 24, 2015, the 14-day detention order expired, but RI detained Rawson while he awaited trial
on the extended petition. On March 25, 2018, French
emailed Pierce County Deputy Prosecuting Attorney
Ken Nichols (“Nichols”) informing him that the VA had
a bed available for Rawson. Dkt. 61-19 at 2. Nichols
replied as follows:
By all means end [sic] him to the VA and
get him off our radar!
I don’t really want to try this case.
I’m not sure there is enough to convince a
jury by clear cogent and convincing evidence
that he needs to be at Western State.
Id. Despite this communication, Rawson remained at
RI.
On April 6, 2019, Christina Lutz (“Lutz”), a nonmedical employee at RI, emailed Nichols regarding
Rawson’s continued detention. She stated that “I just
talked with Dr. [Halarnakar] he wants to go through
with the Jury Trial. Kenneth is not taking his medications or participating in treatment in any meaningful
way.” Dkt. 61-19 at 20. After this email, Nichols became
more actively involved in preparation for the jury trial

App. 104
on the 90-day petition. In the previous order, the Court
cites Nichols’s interactions with Halarnakar and
French. See Dkt. 157 at 7-10.
On May 7, 2019, the Court heard oral argument
on the remaining aspects of the parties’ motions:
(1) whether Nichols’s involvement was sufﬁcient to
ﬁnd state action and, (2) even if he was so involved,
whether it caused any additional unconstitutional detention.
II.

DISCUSSION

A. Summary Judgment Standard
Summary judgment is proper only if the pleadings, the discovery and disclosure materials on ﬁle, and
any afﬁdavits show that there is no genuine issue as to
any material fact and that the movant is entitled to
judgment as a matter of law. Fed. R. Civ. P. 56(c). The
moving party is entitled to judgment as a matter of law
when the nonmoving party fails to make a sufﬁcient
showing on an essential element of a claim in the case
on which the nonmoving party has the burden of proof.
Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986). There
is no genuine issue of fact for trial where the record,
taken as a whole, could not lead a rational trier of fact
to ﬁnd for the nonmoving party. Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586 (1986)
(nonmoving party must present speciﬁc, signiﬁcant
probative evidence, not simply “some metaphysical
doubt”). See also Fed. R. Civ. P. 56(e). Conversely, a genuine dispute over a material fact exists if there is

App. 105
sufﬁcient evidence supporting the claimed factual dispute, requiring a judge or jury to resolve the differing
versions of the truth. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 253 (1986); T.W. Elec. Serv., Inc. v. Pac.
Elec. Contractors Ass’n, 809 F.2d 626, 630 (9th Cir.
1987).
The determination of the existence of a material
fact is often a close question. The Court must consider
the substantive evidentiary burden that the nonmoving party must meet at trial—e.g., a preponderance of
the evidence in most civil cases. Anderson, 477 U.S. at
254; T.W. Elec. Serv., Inc., 809 F.2d at 630. The Court
must resolve any factual issues of controversy in favor
of the nonmoving party only when the facts speciﬁcally
attested by that party contradict facts speciﬁcally attested by the moving party. The nonmoving party may
not merely state that it will discredit the moving
party’s evidence at trial, in the hopes that evidence can
be developed at trial to support the claim. T.W. Elec.
Serv., Inc., 809 F.2d at 630 (relying on Anderson, 477
U.S. at 255). Conclusory, nonspeciﬁc statements in afﬁdavits are not sufﬁcient, and missing facts will not be
presumed. Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 871,
888-89 (1990).
B. 42 U.S.C. § 1983
The Court has adequately laid out what it considers the appropriate standard for state action in this
matter. Dkt. 157 at 13-19. In sum, Rawson must establish that a state actor’s involvement was sufﬁcient to

App. 106
overcome the purely medical judgment of the private
actors. Id. After oral argument, the Court concludes
that there was no state action in this matter and, even
if there was, Rawson has failed to establish a triable
issue of fact that Nichols’s involvement caused any violation of his rights.
First, the evidence establishes that Halarnakar
was going to proceed to trial on the 90-day petition regardless of any advice from Nichols. On March 25,
2019, Nichols stated that he was “not sure there is
enough to convince a jury by clear cogent and convincing evidence that he needs to be at Western State.” Dkt.
61-19 at 2. After that statement, Lutz stated that
Halarnakar wanted to go to trial on the 90-day petition. Dkt. 61-19 at 20. Rawson has failed to submit any
evidence to establish that Halarnakar ever changed
his mind about either releasing Rawson or withdrawing the petition. Thus, there is no evidence to establish that Nichols’s involvement overbore Halarnakar’s
medical judgment as to Rawson’s detention. Under the
Court’s standard, there can be no state action if there
is no favorable medical judgment to be overborne.
Second, the same evidence establishes that Nichols’s involvement did not cause any constitutional
violation. During oral argument, Defendants cited
Crumpton v. Gates, 947 F.2d 1418 (9th Cir. 1991), for
the proposition that Rawson must establish that the
violation of his rights were proximately caused by conduct of a person acting under color of state law. Id. at
1420. Because the evidence establishes that Halarnakar was committed to trial on the 90-day petition,

App. 107
Rawson fails to show that Nichols could have been the
proximate cause of any unconstitutional detention.
Therefore, the Court grants Defendants’ motion as to
state action and as to the merits and denies Rawson’s
motion.
III.

ORDER

Therefore, it is hereby ORDERED that the remaining portion of Defendants’ motion for summary
judgment, Dkt. 140, is GRANTED and the remaining
portion of Rawson’s motion for partial summary judgment, Dkt. 136, is DENIED.
The parties are directed to submit a joint status
report as to whether this order or the Court’s previous
order, Dkt. 157, moot any portion of their motions in
limine, Dkts. 152, 154.
Dated this 9th day of May, 2019.
/s/ Benjamin H. Settle
BENJAMIN H. SETTLE
United States District Judge

App. 108
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
KENNETH RAWSON,
an individual,
Plaintiff-Appellant,
v.
RECOVERY INNOVATIONS,
INC., a corporation; SAMI
FRENCH, an individual;
JENNIFER CLINGENPEEL,
an individual; VASANT
HALARNAKAR, M.D.,
an individual,

No. 19-35520
D.C. No.
3:17-cv-05342-BHS
Western District
of Washington,
Tacoma
ORDER
(Filed Oct. 15, 2020)

Defendants-Appellees.
Before: CLIFTON, D.M. FISHER,* and M. SMITH,
Circuit Judges.
The panel unanimously voted to deny the petition
for panel rehearing. Judge M. Smith voted to deny the
petition for rehearing en banc, and Judges Clifton and
Fisher so recommend.
The full court has been advised of the petition for
rehearing en banc and no judge of the court has requested a vote on it. Fed. R. App. P. 35.

* The Honorable D. Michael Fisher, United States Circuit
Judge for the U.S. Court of Appeals for the Third Circuit, sitting
by designation.

App. 109
The petition for panel rehearing and the petition
for rehearing en banc are DENIED.

App. 110
RELEVANT STATUTORY PROVISIONS
RCW 71.05.010
Legislative intent.
(1) The provisions of this chapter apply to persons who are eighteen years of age or older and are intended by the legislature:
(a) To protect the health and safety of persons
suffering from behavioral health disorders and to protect public safety through use of the parens patriae
and police powers of the state;
(b) To prevent inappropriate, indeﬁnite commitment of persons living with behavioral health disorders and to eliminate legal disabilities that arise from
such commitment;
(c) To provide prompt evaluation and timely and
appropriate treatment of persons with serious behavioral health disorders;
(d)

To safeguard individual rights;

(e) To provide continuity of care for persons with
serious behavioral health disorders;
(f ) To encourage the full use of all existing
agencies, professional personnel, and public funds to
prevent duplication of services and unnecessary expenditures; and
(g) To encourage, whenever appropriate, that
services be provided within the community.

App. 111
(2) When construing the requirements of this
chapter the court must focus on the merits of the petition, except where requirements have been totally disregarded, as provided in In re C.W., 147 Wn.2d 259, 281
(2002). A presumption in favor of deciding petitions on
their merits furthers both public and private interests
because the mental and physical well-being of individuals as well as public safety may be implicated by the
decision to release an individual and discontinue his or
her treatment.

RCW 71.05.020
Definitions. (Effective until July 1, 2022.)
The deﬁnitions in this section apply throughout
this chapter unless the context clearly requires otherwise.
(1) “Admission” or “admit” means a decision by a
physician, physician assistant, or psychiatric advanced
registered nurse practitioner that a person should be
examined or treated as a patient in a hospital;
(2) “Alcoholism” means a disease, characterized
by a dependency on alcoholic beverages, loss of control
over the amount and circumstances of use, symptoms
of tolerance, physiological or psychological withdrawal,
or both, if use is reduced or discontinued, and impairment of health or disruption of social or economic functioning;

App. 112
(3) “Antipsychotic medications” means that class
of drugs primarily used to treat serious manifestations
of mental illness associated with thought disorders,
which includes, but is not limited to atypical antipsychotic medications;
(4) “Approved substance use disorder treatment
program” means a program for persons with a substance use disorder provided by a treatment program
certiﬁed by the department as meeting standards
adopted under chapter 71.24 RCW;
(5) “Attending staff ” means any person on the
staff of a public or private agency having responsibility
for the care and treatment of a patient;
(6) “Authority” means the Washington state
health care authority;
(7) “Behavioral health disorder” means either a
mental disorder as deﬁned in this section, a substance
use disorder as deﬁned in this section, or a co-occurring
mental disorder and substance use disorder;
(8) “Behavioral health service provider” means a
public or private agency that provides mental health,
substance use disorder, or co-occurring disorder services to persons with behavioral health disorders as
deﬁned under this section and receives funding from
public sources. This includes, but is not limited to, hospitals licensed under chapter 70.41 RCW, evaluation
and treatment facilities as deﬁned in this section, community mental health service delivery systems or community behavioral health programs as deﬁned in RCW

App. 113
71.24.025, facilities conducting competency evaluations and restoration under chapter 10.77 RCW, approved substance use disorder treatment programs as
deﬁned in this section, secure withdrawal management and stabilization facilities as deﬁned in this section, and correctional facilities operated by state and
local governments;
(9) “Co-occurring disorder specialist” means an
individual possessing an enhancement granted by the
department of health under chapter 18.205 RCW that
certiﬁes the individual to provide substance use disorder counseling subject to the practice limitations under
RCW 18.205.105;
(10) “Commitment” means the determination by
a court that a person should be detained for a period of
either evaluation or treatment, or both, in an inpatient
or a less restrictive setting;
(11) “Conditional release” means a revocable
modiﬁcation of a commitment, which may be revoked
upon violation of any of its terms;
(12) “Crisis stabilization unit” means a shortterm facility or a portion of a facility licensed or certiﬁed by the department, such as an evaluation and
treatment facility or a hospital, which has been designed to assess, diagnose, and treat individuals experiencing an acute crisis without the use of long-term
hospitalization;
(13) “Custody” means involuntary detention under the provisions of this chapter or chapter 10.77

App. 114
RCW, uninterrupted by any period of unconditional release from commitment from a facility providing involuntary care and treatment;
(14)
health;

“Department” means the department of

(15) “Designated crisis responder” means a mental health professional appointed by the county, by an
entity appointed by the county, or by the authority in
consultation with a federally recognized Indian tribe
or after meeting and conferring with an Indian health
care provider, to perform the duties speciﬁed in this
chapter;
(16) “Detention” or “detain” means the lawful
conﬁnement of a person, under the provisions of this
chapter;
(17) “Developmental disabilities professional”
means a person who has specialized training and three
years of experience in directly treating or working with
persons with developmental disabilities and is a psychiatrist, physician assistant working with a supervising psychiatrist, psychologist, psychiatric advanced
registered nurse practitioner, or social worker, and
such other developmental disabilities professionals as
may be deﬁned by rules adopted by the secretary of the
department of social and health services;
(18) “Developmental disability” means that condition deﬁned in RCW 71A.10.020(5);
(19)
ity;

“Director” means the director of the author-

App. 115
(20) “Discharge” means the termination of hospital medical authority. The commitment may remain in
place, be terminated, or be amended by court order;
(21) “Drug addiction” means a disease, characterized by a dependency on psychoactive chemicals,
loss of control over the amount and circumstances of
use, symptoms of tolerance, physiological or psychological withdrawal, or both, if use is reduced or discontinued, and impairment of health or disruption of social
or economic functioning;
(22) “Evaluation and treatment facility” means
any facility which can provide directly, or by direct arrangement with other public or private agencies, emergency evaluation and treatment, outpatient care, and
timely and appropriate inpatient care to persons suffering from a mental disorder, and which is licensed or
certiﬁed as such by the department. The authority may
certify single beds as temporary evaluation and treatment beds under RCW 71.05.745. A physically separate and separately operated portion of a state hospital
may be designated as an evaluation and treatment facility. A facility which is part of, or operated by, the department of social and health services or any federal
agency will not require certiﬁcation. No correctional
institution or facility, or jail, shall be an evaluation and
treatment facility within the meaning of this chapter;
(23) “Gravely disabled” means a condition in
which a person, as a result of a behavioral health disorder: (a) Is in danger of serious physical harm resulting from a failure to provide for his or her essential

App. 116
human needs of health or safety; or (b) manifests severe deterioration in routine functioning evidenced by
repeated and escalating loss of cognitive or volitional
control over his or her actions and is not receiving such
care as is essential for his or her health or safety;
(24) “Habilitative services” means those services
provided by program personnel to assist persons in
acquiring and maintaining life skills and in raising
their levels of physical, mental, social, and vocational
functioning. Habilitative services include education,
training for employment, and therapy. The habilitative
process shall be undertaken with recognition of the
risk to the public safety presented by the person being
assisted as manifested by prior charged criminal conduct;
(25) “Hearing” means any proceeding conducted
in open court that conforms to the requirements of
RCW 71.05.820;
(26) “History of one or more violent acts” refers
to the period of time ten years prior to the ﬁling of a
petition under this chapter, excluding any time spent,
but not any violent acts committed, in a behavioral
health facility, or in conﬁnement as a result of a criminal conviction;
(27) “Imminent” means the state or condition of
being likely to occur at any moment or near at hand,
rather than distant or remote;
(28) “In need of assisted outpatient behavioral
health treatment” means that a person, as a result of

App. 117
a behavioral health disorder: (a) Has been committed
by a court to detention for involuntary behavioral
health treatment during the preceding thirty-six
months; (b) is unlikely to voluntarily participate in
outpatient treatment without an order for less restrictive alternative treatment, based on a history of nonadherence with treatment or in view of the person’s
current behavior; (c) is likely to beneﬁt from less restrictive alternative treatment; and (d) requires less
restrictive alternative treatment to prevent a relapse,
decompensation, or deterioration that is likely to result in the person presenting a likelihood of serious
harm or the person becoming gravely disabled within
a reasonably short period of time;
(29) “Individualized service plan” means a plan
prepared by a developmental disabilities professional
with other professionals as a team, for a person with
developmental disabilities, which shall state:
(a) The nature of the person’s speciﬁc problems,
prior charged criminal behavior, and habilitation needs;
(b) The conditions and strategies necessary to
achieve the purposes of habilitation;
(c) The intermediate and long-range goals of the
habilitation program, with a projected timetable for
the attainment;
(d) The rationale for using this plan of habilitation to achieve those intermediate and long-range
goals;

App. 118
(e)
plan;

The staff responsible for carrying out the

(f ) Where relevant in light of past criminal behavior and due consideration for public safety, the
criteria for proposed movement to less-restrictive settings, criteria for proposed eventual discharge or release, and a projected possible date for discharge or
release; and
(g) The type of residence immediately anticipated for the person and possible future types of residences;
(30) “Intoxicated person” means a person whose
mental or physical functioning is substantially impaired as a result of the use of alcohol or other psychoactive chemicals;
(31) “Judicial commitment” means a commitment by a court pursuant to the provisions of this
chapter;
(32) “Legal counsel” means attorneys and staff
employed by county prosecutor offices or the state
attorney general acting in their capacity as legal representatives of public behavioral health service providers under RCW 71.05.130;
(33) “Less restrictive alternative treatment”
means a program of individualized treatment in a less
restrictive setting than inpatient treatment that includes the services described in RCW 71.05.585;

App. 119
(34) “Licensed physician” means a person licensed to practice medicine or osteopathic medicine
and surgery in the state of Washington;
(35)

“Likelihood of serious harm” means:

(a) A substantial risk that: (i) Physical harm will
be inﬂicted by a person upon his or her own person, as
evidenced by threats or attempts to commit suicide or
inﬂict physical harm on oneself; (ii) physical harm will
be inﬂicted by a person upon another, as evidenced by
behavior which has caused such harm or which places
another person or persons in reasonable fear of sustaining such harm; or (iii) physical harm will be inﬂicted by a person upon the property of others, as
evidenced by behavior which has caused substantial
loss or damage to the property of others; or
(b) The person has threatened the physical
safety of another and has a history of one or more violent acts;
(36) “Medical clearance” means a physician or
other health care provider has determined that a person is medically stable and ready for referral to the
designated crisis responder;
(37) “Mental disorder” means any organic, mental, or emotional impairment which has substantial
adverse effects on a person’s cognitive or volitional
functions;
(38) “Mental health professional” means a psychiatrist, psychologist, physician assistant working
with a supervising psychiatrist, psychiatric advanced

App. 120
registered nurse practitioner, psychiatric nurse, or social worker, and such other mental health professionals as may be deﬁned by rules adopted by the secretary
pursuant to the provisions of this chapter;
(39) “Peace ofﬁcer” means a law enforcement ofﬁcial of a public agency or governmental unit, and includes persons speciﬁcally given peace ofﬁcer powers
by any state law, local ordinance, or judicial order of
appointment;
(40) “Physician assistant” means a person licensed as a physician assistant under chapter *18.57A
or 18.71A RCW;
(41) “Private agency” means any person, partnership, corporation, or association that is not a public
agency, whether or not ﬁnanced in whole or in part by
public funds, which constitutes an evaluation and
treatment facility or private institution, or hospital, or
approved substance use disorder treatment program,
which is conducted for, or includes a department or
ward conducted for, the care and treatment of persons
with behavioral health disorders;
(42) “Professional person” means a mental
health professional, substance use disorder professional, or designated crisis responder and shall also
mean a physician, physician assistant, psychiatric advanced registered nurse practitioner, registered nurse,
and such others as may be deﬁned by rules adopted by
the secretary pursuant to the provisions of this chapter;

App. 121
(43) “Psychiatric advanced registered nurse
practitioner” means a person who is licensed as an advanced registered nurse practitioner pursuant to chapter 18.79 RCW; and who is board certiﬁed in advanced
practice psychiatric and mental health nursing;
(44) “Psychiatrist” means a person having a license as a physician and surgeon in this state who has
in addition completed three years of graduate training
in psychiatry in a program approved by the American
medical association or the American osteopathic association and is certiﬁed or eligible to be certiﬁed by the
American board of psychiatry and neurology;
(45) “Psychologist” means a person who has been
licensed as a psychologist pursuant to chapter 18.83
RCW;
(46) “Public agency” means any evaluation and
treatment facility or institution, secure withdrawal
management and stabilization facility, approved substance use disorder treatment program, or hospital
which is conducted for, or includes a department or
ward conducted for, the care and treatment of persons
with behavioral health disorders, if the agency is operated directly by federal, state, county, or municipal government, or a combination of such governments;
(47) “Release” means legal termination of the
commitment under the provisions of this chapter;
(48) “Resource management services” has the
meaning given in chapter RCW;

App. 122
(49) “Secretary” means the secretary of the department of health, or his or her designee;
(50) “Secure withdrawal management and stabilization facility” means a facility operated by either a
public or private agency or by the program of an
agency which provides care to voluntary individuals
and individuals involuntarily detained and committed
under this chapter for whom there is a likelihood of serious harm or who are gravely disabled due to the presence of a substance use disorder. Secure withdrawal
management and stabilization facilities must:
(a)

Provide the following services:

(i) Assessment and treatment, provided by certified substance use disorder professionals or cooccurring disorder specialists;
(ii)

Clinical stabilization services;

(iii) Acute or subacute detoxiﬁcation services for
intoxicated individuals; and
(iv) Discharge assistance provided by certiﬁed
substance use disorder professionals or co-occurring
disorder specialists, including facilitating transitions
to appropriate voluntary or involuntary inpatient services or to less restrictive alternatives as appropriate
for the individual;
(b) Include security measures sufﬁcient to protect the patients, staff, and community; and
(c) Be licensed or certiﬁed as such by the department of health;

App. 123
(51) “Social worker” means a person with a master’s or further advanced degree from a social work
educational program accredited and approved as provided in RCW 18.320.010;
(52) “Substance use disorder” means a cluster of
cognitive, behavioral, and physiological symptoms indicating that an individual continues using the substance despite signiﬁcant substance-related problems.
The diagnosis of a substance use disorder is based on
a pathological pattern of behaviors related to the use
of the substances;
(53) “Substance use disorder professional”
means a person certiﬁed as a substance use disorder
professional by the department of health under chapter 18.205 RCW;
(54) “Therapeutic court personnel” means the
staff of a mental health court or other therapeutic
court which has jurisdiction over defendants who are
dually diagnosed with mental disorders, including
court personnel, probation ofﬁcers, a court monitor,
prosecuting attorney, or defense counsel acting within
the scope of therapeutic court duties;
(55) “Treatment records” include registration
and all other records concerning persons who are receiving or who at any time have received services for
behavioral health disorders, which are maintained by
the department of social and health services, the department, the authority, behavioral health administrative services organizations and their staffs, managed
care organizations and their staffs, and by treatment

App. 124
facilities. Treatment records include mental health information contained in a medical bill including but not
limited to mental health drugs, a mental health diagnosis, provider name, and dates of service stemming
from a medical service. Treatment records do not include notes or records maintained for personal use by
a person providing treatment services for the department of social and health services, the department, the
authority, behavioral health administrative services
organizations, managed care organizations, or a treatment facility if the notes or records are not available to
others;
(56) “Triage facility” means a short-term facility
or a portion of a facility licensed or certiﬁed by the department, which is designed as a facility to assess and
stabilize an individual or determine the need for involuntary commitment of an individual, and must meet
department residential treatment facility standards. A
triage facility may be structured as a voluntary or involuntary placement facility;
(57) “Video,” unless the context clearly indicates
otherwise, means the delivery of behavioral health services through the use of interactive audio and video
technology, permitting real-time communication between a person and a designated crisis responder, for
the purpose of evaluation. “Video” does not include the
use of audio-only telephone, facsimile, email, or store
and forward technology. “Store and forward technology” means use of an asynchronous transmission of a
person’s medical information from a mental health service provider to the designated crisis responder which

App. 125
results in medical diagnosis, consultation, or treatment;
(58) “Violent act” means behavior that resulted
in homicide, attempted suicide, injury, or substantial
loss or damage to property;
(59) “Written order of apprehension” means an
order of the court for a peace ofﬁcer to deliver the
named person in the order to a facility or emergency
room as determined by the designated crisis responder.
Such orders shall be entered into the Washington
crime information center database.

RCW 71.05.153
Emergency detention of persons with behavioral health disorders—Procedure. (Effective
until January 1, 2021.)
(1) When a designated crisis responder receives
information alleging that a person, as the result of a
behavioral health disorder, presents an imminent likelihood of serious harm, or is in imminent danger because of being gravely disabled, after investigation and
evaluation of the speciﬁc facts alleged and of the reliability and credibility of the person or persons providing
the information if any, the designated crisis responder
may take such person, or cause by oral or written order
such person to be taken into emergency custody in an
evaluation and treatment facility, secure withdrawal
management and stabilization facility if available with
adequate space for the person, or approved substance

App. 126
use disorder treatment program if available with adequate space for the person, for not more than seventytwo hours as described in RCW 71.05.180.
(2)(a) Subject to (b) of this subsection, a peace ofﬁcer may take or cause such person to be taken into
custody and immediately delivered to a triage facility,
crisis stabilization unit, evaluation and treatment
facility, secure withdrawal management and stabilization facility, approved substance use disorder treatment program, or the emergency department of a local
hospital under the following circumstances:
(i)

Pursuant to subsection (1) of this section; or

(ii) When he or she has reasonable cause to believe that such person is suffering from a behavioral
health disorder and presents an imminent likelihood
of serious harm or is in imminent danger because of
being gravely disabled.
(b) A peace ofﬁcer’s delivery of a person, to a
secure withdrawal management and stabilization facility or approved substance use disorder treatment
program is subject to the availability of a secure withdrawal management and stabilization facility or approved substance use disorder treatment program
with adequate space for the person.
(3) Persons delivered to a crisis stabilization
unit, evaluation and treatment facility, emergency department of a local hospital, triage facility that has
elected to operate as an involuntary facility, secure
withdrawal management and stabilization facility, or

App. 127
approved substance use disorder treatment program
by peace ofﬁcers pursuant to subsection (2) of this section may be held by the facility for a period of up to
twelve hours, not counting time periods prior to medical clearance.
(4) Within three hours after arrival, not counting
time periods prior to medical clearance, the person
must be examined by a mental health professional
or substance use disorder professional. Within twelve
hours of notice of the need for evaluation, not counting
time periods prior to medical clearance, the designated
crisis responder must determine whether the individual meets detention criteria. The interview performed
by the designated crisis responder may be conducted
by video provided that a licensed health care professional or professional person who can adequately and
accurately assist with obtaining any necessary information is present with the person at the time of the
interview. If the individual is detained, the designated
crisis responder shall ﬁle a petition for detention or a
supplemental petition as appropriate and commence
service on the designated attorney for the detained
person. If the individual is released to the community,
the behavioral health service provider shall inform the
peace ofﬁcer of the release within a reasonable period
of time after the release if the peace ofﬁcer has specifically requested notiﬁcation and provided contact information to the provider.
(5) Dismissal of a commitment petition is not the
appropriate remedy for a violation of the timeliness requirements of this section based on the intent of this

App. 128
chapter under RCW 71.05.010 except in the few cases
where the facility staff or designated crisis responder
has totally disregarded the requirements of this section.

RCW 71.05.170
Acceptance of petition—Notice—Duty of state
hospital. (Effective until January 1, 2021.)
Whenever the designated crisis responder petitions for detention of a person whose actions constitute
a likelihood of serious harm, or who is gravely disabled,
the facility providing seventy-two hour evaluation and
treatment must immediately accept on a provisional
basis the petition and the person. The facility shall
then evaluate the person’s condition and admit, detain,
transfer, or discharge such person in accordance with
RCW 71.05.210. The facility shall notify in writing the
court and the designated crisis responder of the date
and time of the initial detention of each person involuntarily detained in order that a probable cause hearing shall be held no later than seventy-two hours after
detention.
The duty of a state hospital to accept persons for
evaluation and treatment under this section shall be
limited by chapter 71.24 RCW.

App. 129
RCW 71.05.210
Evaluation—Treatment and care—Release or
other disposition. (Effective until January 1,
2021.)
(1) Each person involuntarily detained and accepted or admitted at an evaluation and treatment
facility, secure withdrawal management and stabilization facility, or approved substance use disorder treatment program:
(a) Shall, within twenty-four hours of his or her
admission or acceptance at the facility, not counting
time periods prior to medical clearance, be examined
and evaluated by:
(i) One physician, physician assistant, or advanced registered nurse practitioner; and
(ii) One mental health professional. If the person
is detained for substance use disorder evaluation and
treatment, the person may be examined by a substance
use disorder professional instead of a mental health
professional; and
(b) Shall receive such treatment and care as his
or her condition requires including treatment on an
outpatient basis for the period that he or she is detained, except that, beginning twenty-four hours prior
to a trial or hearing pursuant to RCW 71.05.215,
71.05.240, 71.05.310, 71.05.320, 71.05.590, or 71.05.217,
the individual may refuse psychiatric medications, but
may not refuse: (i) Any other medication previously
prescribed by a person licensed under Title 18 RCW; or

App. 130
(ii) emergency lifesaving treatment, and the individual
shall be informed at an appropriate time of his or her
right of such refusal. The person shall be detained up
to seventy-two hours, if, in the opinion of the professional person in charge of the facility, or his or her professional designee, the person presents a likelihood of
serious harm, or is gravely disabled. A person who has
been detained for seventy-two hours shall no later
than the end of such period be released, unless referred
for further care on a voluntary basis, or detained pursuant to court order for further treatment as provided
in this chapter.
(2) If, after examination and evaluation, the
mental health professional or substance use disorder
professional and licensed physician, physician assistant, or psychiatric advanced registered nurse practitioner determine that the initial needs of the person, if
detained to an evaluation and treatment facility, would
be better served by placement in a substance use disorder treatment program, or, if detained to a secure
withdrawal management and stabilization facility or
approved substance use disorder treatment program,
would be better served in an evaluation and treatment
facility then the person shall be referred to the more
appropriate placement; however, a person may only be
referred to a secure withdrawal management and stabilization facility or approved substance use disorder
treatment program if there is an available secure
withdrawal management and stabilization facility or
approved substance use disorder treatment program
with adequate space for the person.

App. 131
(3) An evaluation and treatment center, secure
withdrawal management and stabilization facility, or
approved substance use disorder treatment program
admitting or accepting any person pursuant to this
chapter whose physical condition reveals the need for
hospitalization shall assure that such person is transferred to an appropriate hospital for evaluation or admission for treatment. Notice of such fact shall be
given to the court, the designated attorney, and the
designated crisis responder and the court shall order
such continuance in proceedings under this chapter as
may be necessary, but in no event may this continuance be more than fourteen days.

RCW 71.05.230
Commitment beyond initial seventy-two hour
evaluation and treatment period—Petition for
fourteen day involuntary treatment or ninety
days of less restrictive alternative treatment—
Procedure. (Effective until January 1, 2021.)
A person detained for seventy-two hour evaluation
and treatment may be committed for not more than
fourteen additional days of involuntary intensive
treatment or ninety additional days of a less restrictive
alternative treatment. A petition may only be ﬁled if
the following conditions are met:
(1) The professional staff of the facility providing evaluation services has analyzed the person’s
condition and ﬁnds that the condition is caused by a

App. 132
behavioral health disorder and results in: (a) A likelihood of serious harm; (b) the person being gravely
disabled; or (c) the person being in need of assisted outpatient behavioral health treatment; and are prepared
to testify those conditions are met; and
(2) The person has been advised of the need for
voluntary treatment and the professional staff of the
facility has evidence that he or she has not in good
faith volunteered; and
(3) The facility providing intensive treatment is
certiﬁed to provide such treatment by the department
or under RCW 71.05.745; and
(4)(a)(i) The professional staff of the facility or
the designated crisis responder has ﬁled a petition
with the court for a fourteen day involuntary detention
or a ninety day less restrictive alternative. The petition
must be signed by:
(A) One physician, physician assistant, or psychiatric advanced registered nurse practitioner; and
(B) One physician, physician assistant, psychiatric advanced registered nurse practitioner, or mental
health professional.
(ii) If the petition is for substance use disorder
treatment, the petition may be signed by a substance
use disorder professional instead of a mental health
professional and by an advanced registered nurse
practitioner instead of a psychiatric advanced registered nurse practitioner. The persons signing the petition must have examined the person.

App. 133
(b) If involuntary detention is sought the petition shall state facts that support the ﬁnding that such
person, as a result of a behavioral health disorder, presents a likelihood of serious harm, or is gravely disabled and that there are no less restrictive alternatives
to detention in the best interest of such person or others. The petition shall state speciﬁcally that less restrictive alternative treatment was considered and
specify why treatment less restrictive than detention
is not appropriate. If an involuntary less restrictive alternative is sought, the petition shall state facts that
support the ﬁnding that such person, as a result of a
behavioral health disorder, presents a likelihood of serious harm, is gravely disabled, or is in need of assisted
outpatient behavioral health treatment, and shall set
forth any recommendations for less restrictive alternative treatment services; and
(5) A copy of the petition has been served on the
detained person, his or her attorney and his or her
guardian or conservator, if any, prior to the probable
cause hearing; and
(6) The court at the time the petition was ﬁled
and before the probable cause hearing has appointed
counsel to represent such person if no other counsel
has appeared; and
(7) The petition reﬂects that the person was informed of the loss of ﬁrearm rights if involuntarily
committed for mental health treatment; and
(8) At the conclusion of the initial commitment
period, the professional staff of the agency or facility or

App. 134
the designated crisis responder may petition for an additional period of either ninety days of less restrictive
alternative treatment or ninety days of involuntary intensive treatment as provided in RCW 71.05.290; and
(9) If the hospital or facility designated to provide less restrictive alternative treatment is other
than the facility providing involuntary treatment, the
outpatient facility so designated to provide less restrictive alternative treatment has agreed to assume such
responsibility.

RCW 71.05.280
Additional commitment—Grounds.
At the expiration of the fourteen-day period of intensive treatment, a person may be committed for further treatment pursuant to RCW 71.05.320 if:
(1) Such person after having been taken into custody for evaluation and treatment has threatened, attempted, or inﬂicted: (a) Physical harm upon the
person of another or himself or herself, or substantial
damage upon the property of another, and (b) as a result of a behavioral health disorder presents a likelihood of serious harm; or
(2) Such person was taken into custody as a result of conduct in which he or she attempted or inﬂicted physical harm upon the person of another or
himself or herself, or substantial damage upon the
property of others, and continues to present, as a result

App. 135
of a behavioral health disorder, a likelihood of serious
harm; or
(3) Such person has been determined to be incompetent and criminal charges have been dismissed
pursuant to RCW 10.77.086(4), and has committed
acts constituting a felony, and as a result of a behavioral health disorder, presents a substantial likelihood
of repeating similar acts.
(a) In any proceeding pursuant to this subsection
it shall not be necessary to show intent, willfulness, or
state of mind as an element of the crime;
(b) For any person subject to commitment under
this subsection where the charge underlying the ﬁnding of incompetence is for a felony classiﬁed as violent
under RCW 9.94A.030, the court shall determine
whether the acts the person committed constitute a violent offense under RCW 9.94A.030; or
(4)

Such person is gravely disabled; or

(5) Such person is in need of assisted outpatient
behavioral health treatment.

RCW 71.05.290
Petition for additional commitment—Affidavit.
(1) At any time during a person’s fourteen day
intensive treatment period, the professional person in
charge of a treatment facility or his or her professional designee or the designated crisis responder may

App. 136
petition the superior court for an order requiring such
person to undergo an additional period of treatment.
Such petition must be based on one or more of the
grounds set forth in RCW 71.05.280.
(2)(a)(i) The petition shall summarize the facts
which support the need for further commitment and
shall be supported by afﬁdavits based on an examination of the patient and signed by:
(A) One physician, physician assistant, or psychiatric advanced registered nurse practitioner; and
(B) One physician, physician assistant, psychiatric advanced registered nurse practitioner, or mental
health professional.
(ii) If the petition is for substance use disorder
treatment, the petition may be signed by a substance
use disorder professional instead of a mental health
professional and by an advanced registered nurse
practitioner instead of a psychiatric advanced registered nurse practitioner.
(b) The afﬁdavits shall describe in detail the behavior of the detained person which supports the petition and shall explain what, if any, less restrictive
treatments which are alternatives to detention are
available to such person, and shall state the willingness of the afﬁant to testify to such facts in subsequent
judicial proceedings under this chapter. If less restrictive alternative treatment is sought, the petition shall
set forth any recommendations for less restrictive alternative treatment services.

App. 137
(3) If a person has been determined to be incompetent pursuant to RCW 10.77.086(4), then the professional person in charge of the treatment facility or his
or her professional designee or the designated crisis responder may directly ﬁle a petition for one hundred
eighty-day treatment under RCW 71.05.280(3), or for
ninety-day treatment under RCW 71.05.280(1), (2), (4),
or (5). No petition for initial detention or fourteen day
detention is required before such a petition may be
ﬁled.

RCW 71.05.310
Time for hearing—Due process—Jury trial Continuation of treatment.
The court shall set a hearing on the petition for
ninety-day or one hundred eighty-day treatment
within ﬁve judicial days of the trial setting hearing, or
within ten judicial days for a petition ﬁled under RCW
71.05.280(3). The court may continue the hearing in
accordance with RCW 71.05.236. If the person named
in the petition requests a jury trial, the trial must be
set within ten judicial days of the next judicial day after the date of ﬁling the petition. The burden of proof
shall be by clear, cogent, and convincing evidence and
shall be upon the petitioner. The person has the right
to be present at such proceeding, which shall in all respects accord with the constitutional guarantees of due
process of law and the rules of evidence under RCW
71.05.217.

App. 138
During the proceeding, the person named in the
petition shall continue to be treated until released by
order of the superior court or discharged by the behavioral health service provider. If the hearing has not
commenced within thirty days after the ﬁling of the
petition, not including extensions of time ordered under RCW 71.05.236, the detained person shall be released.

RCW 71.05.320
Remand for additional treatment—Less restrictive alternatives—Duration—Grounds—Hearing.
(Effective until July 1, 2026.)
(1)(a) Subject to (b) of this subsection, if the court
or jury ﬁnds that grounds set forth in RCW 71.05.280
have been proven and that the best interests of the person or others will not be served by a less restrictive
treatment which is an alternative to detention, the
court shall remand him or her to the custody of the department of social and health services or to a facility
certiﬁed for ninety day treatment by the department
for a further period of intensive treatment not to exceed ninety days from the date of judgment.
(b) If the order for inpatient treatment is based
on a substance use disorder, treatment must take place
at an approved substance use disorder treatment program. The court may only enter an order for commitment based on a substance use disorder if there is an

App. 139
available approved substance use disorder treatment
program with adequate space for the person.
(c) If the grounds set forth in RCW 71.05.280(3)
are the basis of commitment, then the period of treatment may be up to but not exceed one hundred eighty
days from the date of judgment to the custody of the
department of social and health services or to a facility
certiﬁed for one hundred eighty-day treatment by the
department or under RCW 71.05.745.
(2) If the court or jury ﬁnds that grounds set
forth in RCW 71.05.280 have been proven, but ﬁnds
that treatment less restrictive than detention will be
in the best interest of the person or others, then the
court shall remand him or her to the custody of the department of social and health services or to a facility
certiﬁed for ninety day treatment by the department
or to a less restrictive alternative for a further period
of less restrictive treatment not to exceed ninety days
from the date of judgment. If the grounds set forth in
RCW 71.05.280(3) are the basis of commitment, then
the period of treatment may be up to but not exceed
one hundred eighty days from the date of judgment. If
the court or jury ﬁnds that the grounds set forth in
RCW 71.05.280(5) have been proven, and provide the
only basis for commitment, the court must enter an order for less restrictive alternative treatment for up to
ninety days from the date of judgment and may not order inpatient treatment.
(3) An order for less restrictive alternative treatment entered under subsection (2) of this section must

App. 140
name the behavioral health service provider responsible for identifying the services the person will receive
in accordance with RCW 71.05.585, and must include
a requirement that the person cooperate with the services planned by the behavioral health service provider.
(4) The person shall be released from involuntary treatment at the expiration of the period of commitment imposed under subsection (1) or (2) of this
section unless the superintendent or professional person in charge of the facility in which he or she is conﬁned, or in the event of a less restrictive alternative,
the designated crisis responder, ﬁles a new petition for
involuntary treatment on the grounds that the committed person:
(a) During the current period of court ordered
treatment: (i) Has threatened, attempted, or inﬂicted
physical harm upon the person of another, or substantial damage upon the property of another, and (ii) as a
result of a behavioral health disorder or developmental disability presents a likelihood of serious harm;
or
(b) Was taken into custody as a result of conduct
in which he or she attempted or inﬂicted serious physical harm upon the person of another, and continues to
present, as a result of a behavioral health disorder or
developmental disability, a likelihood of serious harm;
or
(c)(i) Is in custody pursuant to RCW 71.05.280(3)
and as a result of a behavioral health disorder or

App. 141
developmental disability continues to present a substantial likelihood of repeating acts similar to the
charged criminal behavior, when considering the person’s life history, progress in treatment, and the public
safety.
(ii) In cases under this subsection where the
court has made an afﬁrmative special ﬁnding under
RCW 71.05.280(3)(b), the commitment shall continue
for up to an additional one hundred eighty-day period
whenever the petition presents prima facie evidence
that the person continues to suffer from a behavioral
health disorder or developmental disability that results in a substantial likelihood of committing acts
similar to the charged criminal behavior, unless the
person presents proof through an admissible expert
opinion that the person’s condition has so changed
such that the behavioral health disorder or developmental disability no longer presents a substantial likelihood of the person committing acts similar to the
charged criminal behavior. The initial or additional
commitment period may include transfer to a specialized program of intensive support and treatment,
which may be initiated prior to or after discharge from
the state hospital; or
(d)

Continues to be gravely disabled; or

(e) Is in need of assisted outpatient behavioral
health treatment.
If the conduct required to be proven in (b) and (c)
of this subsection was found by a judge or jury in a

App. 142
prior trial under this chapter, it shall not be necessary
to prove such conduct again.
If less restrictive alternative treatment is sought,
the petition shall set forth any recommendations for
less restrictive alternative treatment services.
(5) A new petition for involuntary treatment
ﬁled under subsection (4) of this section shall be ﬁled
and heard in the superior court of the county of the facility which is ﬁling the new petition for involuntary
treatment unless good cause is shown for a change of
venue. The cost of the proceedings shall be borne by the
state.
(6)(a) The hearing shall be held as provided in
RCW 71.05.310, and if the court or jury ﬁnds that the
grounds for additional conﬁnement as set forth in this
section are present, subject to subsection (1)(b) of this
section, the court may order the committed person returned for an additional period of treatment not to exceed one hundred eighty days from the date of
judgment, except as provided in subsection (7) of this
section. If the court’s order is based solely on the
grounds identified in subsection (4)(e) of this section,
the court may enter an order for less restrictive alternative treatment not to exceed one hundred
eighty days from the date of judgment, and may not
enter an order for inpatient treatment. An order for
less restrictive alternative treatment must name the
behavioral health service provider responsible for
identifying the services the person will receive in accordance with RCW 71.05.585, and must include a

App. 143
requirement that the person cooperate with the services planned by the behavioral health service provider.
(b) At the end of the one hundred eighty-day
period of commitment, or one-year period of commitment if subsection (7) of this section applies, the committed person shall be released unless a petition
for an additional one hundred eighty-day period of
continued treatment is filed and heard in the same
manner as provided in this section. Successive one
hundred eighty-day commitments are permissible on
the same grounds and pursuant to the same procedures as the original one hundred eighty-day commitment.
(7) An order for less restrictive treatment entered under subsection (6) of this section may be for up
to one year when the person’s previous commitment
term was for intensive inpatient treatment in a state
hospital.
(8) No person committed as provided in this section may be detained unless a valid order of commitment is in effect. No order of commitment can exceed
one hundred eighty days in length except as provided
in subsection (7) of this section.

App. 144
RCW 71.05.510
Damages for excessive detention.
Any individual who knowingly, willfully or through
gross negligence violates the provisions of this chapter
by detaining a person for more than the allowable
number of days shall be liable to the person detained
in civil damages. It shall not be a prerequisite to an
action under this section that the plaintiff shall have
suffered or be threatened with special, as contrasted
with general damages.

App. 145
Hon. Benjamin H. Settle
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
KENNETH RAWSON,
an individual,
Plaintiff,
v.

No. 3:17–cv–05342–BHS
SECOND AMENDED
COMPLAINT
DEMAND FOR JURY

RECOVERY INNOVATIONS, (Filed Apr. 13, 2018)
INC., a corporation, SAMI
FRENCH, an individual,
JENNIFER CLINGENPEEL,
an individual, VASANT
HALARNAKAR, M.D.,
an individual,
Defendant.
I.

NATURE OF CASE

1.1 This is a case for damages and declaratory
and injunctive relief against Recovery Innovations,
Inc., and three of its employees for illegally and unconstitutionally detaining Kenneth Rawson for more than
50 days, during which time it unconstitutionally forced
on him medical treatment, including psychotropic
medication, that was not medically necessary. The
State had outsourced to Recovery Innovations the provision of some emergency mental health services in
Pierce County, Washington. As a result, Recovery Innovations acted under color of state law with near total
authority to evaluate, detain, and treat individuals

App. 146
such as Mr. Rawson who Recovery Innovations claimed
suffer from a mental illness that makes them a danger
to themselves or others, or who have a grave disability.
II.

PARTIES

2.1 Plaintiff Kenneth Rawson is an individual
residing in Texas. Mr. Rawson formerly resided in
Clark County, Washington, during which time he was
detained and committed.
2.2 Defendant Recovery Innovations, Inc. is a
corporation incorporated in Arizona that is registered
and licensed to do business in Washington. It does
business under the name, Recovery Innovations. Recovery Innovations has multiple locations in Washington, including the location at issue in this case, which
is at 9601 Steilacoom Blvd SW #27, Lakewood, WA
98498, on the grounds of Western State Hospital.
2.3 Defendant Sami French is an individual who
worked for Recovery Innovations at its 9601 Steilacoom Blvd SW #27, Lakewood, WA 98498 at all times
relevant to this case. On information and belief, Ms.
French resides in Washington.
2.4 Defendant Jennifer Clingenpeel is an individual who worked for Recovery Innovations at its
9601 Steilacoom Blvd SW #27, Lakewood, WA 98498 at
times relevant to this case. On information and belief,
Ms. Clingenpeel resides in Washington.
2.5 Defendant Vasant Halarnakar is an individual who worked for Recovery Innovations at its 9601

App. 147
Steilacoom Blvd SW #27, Lakewood, WA 98498 at
times relevant to this case. On information and belief,
Dr. Halarnakar resides in Washington.
III.

JURISDICTION AND VENUE

3.1 This Court has jurisdiction over Plaintiff ’s
claims and over Defendants.
3.2 Venue is appropriate in this court because
the acts and omissions at issue in this case took place
in this judicial district, and Defendants reside in or do
business here.
3.3 Plaintiff has ﬁled a notice of claim with Recovery Innovations, and more than 60 days have
elapsed since that ﬁling. Plaintiff has therefore exhausted administrative remedies as required under
RCW 4.96.
IV.

FACTS

A. Recovery Innovations Provides Mental
Health Evaluation and Treatment Services to the State
4.1 Recovery Innovations is a licensed “evaluation and treatment” provider under RCW 71.05.020.
4.2 Recovery Innovations operates a facility that
it rents from the State on the campus of Western State
Hospital (9601 Steilacoom Blvd SW #27, Lakewood, WA
98498) to confine individuals who are involuntarily

App. 148
committed on an emergency basis and to provide them
mental health evaluation and treatment.
4.3 Emergency mental health evaluation and
treatment constitutes a public function of the State of
Washington.
4.4 Recovery Innovations engages in trade and
commerce that directly and indirectly affects the people of the State of Washington.
4.5 The State licenses, regulates, and oversees
the operations of Recovery Innovations’s mental health
and evaluation treatment facility.
4.6 The Recovery Innovations facility where Defendants detained Mr. Rawson was substantially below
the standard generally accepted in the medical community for an emergency mental health evaluation
and treatment facility. It was too small to accommodate the number of patients it treated, was unsanitary,
and did not have space for important treatments and
services. This remains true.
B. Recovery Innovations’s Initial Evaluation of Mr. Rawson
4.7 Clark County Designated Mental Health
Professional Al Padilla entered an emergency order
to involuntary commit Kenneth Rawson on March 6,
2015.
4.8 Mr. Padilla based his opinion on the need to
commit Mr. Rawson on his own evaluation of him, as

App. 149
well as the reports of the Clark County Sheriff ’s Ofﬁce
regarding Mr. Rawson’s non-violent behavior at a bank
in Vancouver, Washington.
4.9 That same day (March 6, 2015), Mr. Padilla
transferred Mr. Rawson to the custody and control of
Recovery Innovations for up to 72 hours of evaluation
and treatment.
4.10 When he arrived at the facility, the staff at
Recovery Innovations, led by Nurse Practitioner Jennifer Clingenpeel and Mental Health Counselor Sami
French, performed only a cursory mental health evaluation of Mr. Rawson.
4.11 Ms. Clingenpeel, Ms. French, and the rest of
the Recovery Innovations staff documented no observations that Mr. Rawson presented a danger to himself
or others when he arrived at the facility, or that he was
gravely disabled.
4.12 Ms. Clingenpeel and Ms. French relied entirely on the opinions of Mr. Padilla and the Clark
County Sheriff ’s Office. Ms. Clingenpeel and Ms.
French’s purported evaluations of Mr. Rawson merely
repeated hearsay statements about Mr. Rawson’s alleged behaviors that those public ofﬁcials had documented.
4.13 Mr. Rawson, a registered nurse who had experience working with mentally ill patients, observed
that Recovery Innovations fell short of the standard of
care for people in emergency mental health situations.

App. 150
He shared his observations and concerns with Ms.
French.
4.14 In response to his criticisms, Ms. French
acted annoyed at Mr. Rawson.
4.15 Ms. French, Ms. Clingenpeel, and Recovery
Innovations knew that Mr. Rawson had never previously been diagnosed with or treated for mental illness, had no history of violent behavior, and had cared
for himself without assistance for his entire adult life.
4.16 Recovery Innovations improperly authorized Ms. French to dictate the detention and treatment
of vulnerable individuals with virtually no checks on
her authority. Ms. French lacked the requisite qualiﬁcations or experience to exercise such authority, but
her superiors, namely Jennifer Clingenpeel and Dr.
Vasant Halarnakar chose to abdicate decision-making
authority to her.
C. 14-Day Petition for Involuntary Commitment
4.17 Despite having not personally observed that
Mr. Rawson presented a danger to himself or anyone
else, or that he was gravely disabled, Ms. French and
Ms. Clingenpeel and Recovery Innovations did not release Mr. Rawson. Instead, on March 9, 2015, they petitioned Pierce County Superior Court to commit Mr.
Rawson involuntarily for an additional 14 days.

App. 151
4.18 Their petition identiﬁed two grounds for Mr.
Rawson’s continued detention: he was a danger to himself or others, and he was gravely disabled.
4.19 Through Ms. Clingenpeel and Ms. French,
Recovery Innovations made false statements in the 14day petition with deliberate indifference to Mr. Rawson’s rights.
4.20 Through Ms. Clingenpeel and Ms. French,
Recovery Innovations knowingly misled Pierce County
Prosecutor Ken Nichols with their false statements to
advocate for an additional 14-day involuntary commitment of Mr. Rawson.
4.21 Recovery Innovations’s staff forced Mr.
Rawson to take 300 mg of the drug Seroquel within 24
hours of the hearing on the 14-day petition, despite the
fact that he had exercised his legal right to decline all
psychiatric medications during that 24-hour period.
4.22 During the hearing on the petition to commit Mr. Rawson for an additional 14 days, Mr. Rawson’s attorney questioned Ms. French aggressively.
4.23 Ms. French took umbrage at the questioning of her authority and resented Mr. Rawson and his
attorney for it.
4.24 Through Ms. French, Recovery Innovations
denied Mr. Rawson’s attorney access to his medical records and ﬁles throughout his detention.
4.25 Based on the false, inadequate, unsupported,
and exaggerated observations and opinions of Ms.

App. 152
French, Ms. Clingenpeel, and Recovery Innovations,
the Pierce County Superior Court approved the 14-day
commitment petition on March 10, 2015.
D. Recovery Innovations’s Continued Detention and Mistreatment of Mr. Rawson
4.26 After the court issued its order, Ms. French
continued to document her purported observations of
Mr. Rawson, as did other members of the Recovery Innovations staff.
4.27 The vast majority of the purported observations documented in Mr. Rawson’s medical records
came from Recovery Innovations staff members who
lacked the qualiﬁcations to make clinical assessments
of his mental health, of whether he presented danger
to himself or others, or whether he was gravely disabled.
4.28 Ms. French, for example, was not licensed to
provide clinical assessments without the supervision
of a licensed psychiatrist.
4.29 No licensed psychiatrist supervised Ms.
French’s assessment of Mr. Rawson.
4.30 Thus on several occasions, Recovery Innovations exercised no professional judgment at all when
making decisions about Mr. Rawson’s continued detention and treatment.
4.31 Recovery Innovations and the individual
defendants based their conclusions regarding Mr.

App. 153
Rawson’s mental health on what they heard about his
words and actions prior to his involuntary commitment, his refusal to admit he was mentally ill, and his
refusal to take antipsychotic medications. Ms. French
and other Recovery Innovations staff concluded that
Mr. Rawson’s denials of being mentally ill proved he
was mentally ill. These were illegitimate bases for
conﬁning Mr. Rawson and providing him involuntary
mental health treatment.
4.32 Mr. Rawson never acted in a violent or
threatening manner at any point during his detention
at Recovery Innovations.
E. 90-Day Petition for Involuntary Commitment and Prolonged Detention of Mr.
Rawson
4.33 Despite lacking any basis for believing Mr.
Rawson presented a danger to himself or anyone
else, Defendants did not release Mr. Rawson. Instead,
on March 19, 2015, through Ms. French and Vasant
Halarnakar, MD, who had by then taken over as head
psychiatrist at Recovery Innovations, Recovery Innovations petitioned the court to involuntarily commit
Mr. Rawson for 90 days.
4.34 In their petition, Defendants alleged as
grounds for Mr. Rawson’s continued involuntary detention that he “had threatened, attempted, or inﬂicted
physical harm upon the person of another or him/
herself, or substantial damage to property of another

App. 154
during the period in custody for evaluation and treatment, and presents a likelihood of serious harm.”
4.35 Defendants’ allegation was false. Recovery
Innovations and the individual defendants never observed Mr. Rawson threaten, attempt, or inﬂict physical harm on any person or property during the period
of his detention. Mr. Rawson never engaged in such behavior during the period of his detention.
4.36 Dr. Halarnakar and Ms. French made false
statements in the 90-day petition with deliberate indifference to Mr. Rawson’s rights.
4.37 Defendants’ 90-day petition included assertions that implied that Mr. Rawson’s condition had
worsened while at Recovery Innovations. These statements were false, and Defendants made them with deliberate indifference to Mr. Rawson’s rights.
4.38 Despite implying that Mr. Rawson’s condition had worsened, Recovery Innovations never adjusted its treatment plan for him.
4.39 Dr. Halarnakar observed Mr. Rawson on
just two occasions before ﬁling Recovery Innovations’s
petition, and Dr. Halarnakar documented few observations in Mr. Rawson’s mental health records.
4.40 Dr. Halarnakar wrote that he had concluded
Mr. Rawson was paranoid because he denied being
mentally ill and because he refused to take antipsychotic medication. Dr. Halarnakar documented no
observations that Mr. Rawson acted violently, made

App. 155
threats, behaved in a way that presented a danger to
himself or to others, or had a grave disability.
4.41 Dr. Halarnakar spoke to Mr. Rawson’s parents, who informed him that Mr. Rawson had no history of mental illness or violent behavior, and that his
behavior at the time conformed to his normal behavior.
4.42 When evaluating Mr. Rawson, Dr. Halarnakar, Ms. Clingenpeel, Ms. French, and other Recovery Innovations staff did not speak to anybody who
knew Mr. Rawson other than his parents.
4.43 Mr. Rawson requested a jury trial to challenge the 90-day involuntary commitment petition. Recovery Innovations continued to hold him and planned
to do so until the trial date.
4.44 After he requested the jury trial, Recovery
Innovations provided virtually no treatment to Mr.
Rawson apart from forcing him to take powerful antipsychotic medication, Seroquel.
4.45 On several occasions during his detention
at Recovery Innovations, Mr. Rawson exercised his
right to refuse antipsychotic medications but Recovery
Innovations staff overrode his refusal, injecting him
against his will, even though he presented no danger
to himself or others, and was not gravely disabled.
Forcible medication was not in Mr. Rawson’s medical
interests at the time of the injections and was not medically necessary.
4.46 Mr. Rawson suffered numerous negative
side effects from the drugs that Recovery Innovations

App. 156
involuntarily administered to him, including cardiac
arrhythmia. He continues to suffer negative effects
that those medications had on him.
4.47 Recovery Innovations continued to falsely
state in Mr. Rawson’s medical records that he presented a danger to himself and others.
4.48 Ms. French or another Recovery Innovations staff person created an entry in Mr. Rawson’s
medical ﬁle each day that they detained him that documented the opinion that he presented a danger to
himself or others and thus required continued detention. They did so without engaging in any meaningful
evaluation of Mr. Rawson and without providing him
an opportunity to dispute and correct the conclusion
entered into his medical records.
4.49 Ms. French and other Recovery Innovations
staff also documented falsely, and only inconsistently,
that Mr. Rawson had a grave disability.
4.50 Recovery Innovations never altered its
treatment plan for Mr. Rawson despite concluding on
a daily basis that he had made no improvements.
4.51 On April 10, 2015, after evaluating Mr.
Rawson at the request of his lawyer, independent psychologist Dr. James Manley concluded that he presented no risk to himself or others, and did not ﬁnd him
gravely disabled.
4.52 Mr. Rawson’s attorney informed Ms. French
and Dr. Halarnakar of Dr Manley’s assessment. But

App. 157
Recovery Innovations declined to dismiss its petition
to continue his involuntary commitment outright.
4.53 Through Ms. French, Recovery Innovations
told Mr. Rawson’s attorney she would only agree to discharge him if he agreed to continue to take the antipsychotic mediation that it had been administering to
him against his will, and accept a less restrictive alternative to commitment that would require him admitting he was rightfully committed.
4.54 Mr. Rawson rejected this offer.
4.55 Later, through Dr. Halarnakar and Ms.
French, Recovery Innovations met with Mr. Rawson
and his attorney to discuss conditions of his release. Dr.
Halarnakar agreed to release Mr. Rawson if he promised to visit the VA hospital to speak to a psychiatrist
there after he was released.
4.56 Although Mr. Rawson disagreed with the
condition, to end his illegitimate confinement, he
agreed to visit a therapist at the VA after he returned
to his home.
4.57 Despite having repeatedly asserted that he
was a danger to himself and to others and gravely disabled, Dr. Halarnakar, Ms. French, and Recovery Innovations agreed to release Mr. Rawson if he agreed to
visit the Veterans Administration Hospital in Portland, Oregon upon his release.
4.58 For the ﬁnal time, on April 25, 2015, Ms.
French documented in his medical records her opinion

App. 158
that Mr. Rawson presented a danger to himself and
others.
4.59 Four days later, with no change in his condition, on April 29, 2015, Recovery Innovations—
having documented the opinion that Mr. Rawson presented a danger to himself and others just a few days
before—withdrew its petition to commit him for 90
days, and put him in a taxicab to the train station.
4.60 The evaluation and treatment and involuntary confinement of Mr. Rawson by Recovery
Innovations and the individual defendants fell so substantially below the standards generally accepted in
the medical community for emergency mental health
evaluation and treatment that it was committed with
deliberate indifference to Mr. Rawson’s rights.
4.61 The evaluation and treatment of Mr. Rawson by Recovery Innovations and the individual defendants was illegitimate and not medically necessary,
and undertaken with deliberate indifference to his
rights. Defendants provided no realistic opportunity
for him to be cured of his alleged condition, and thus to
be released from detention.
4.62 Recovery Innovations and the individual
defendants subjected Mr. Rawson to continued detention and forcible medication in a manner that
amounted to constitutionally impermissible punishment for his unwillingness to take antipsychotic medications, his refusal to admit he was mentally ill or
dangerous, his critique of the care provided at the
facility, and his attorney’s aggressive questioning of

App. 159
Ms. French during the hearing on the 14-day commitment petition.
4.63 Recovery Innovations, Ms. French, Ms.
Clingenpeel, and Dr. Halarnakar performed their
duties as mental health professionals treating Mr.
Rawson in bad faith and with deliberate indifference
to Mr. Rawson’s rights.
4.64 Recovery Innovations and the individual
defendants failed to make a reasonable assessment of
whether Mr. Rawson’s perceived disability could be
evaluated and treated in a community setting, or other
less intrusive alternative to involuntary detention, and
did not afford him treatment in the least restrictive environment.
4.65 The acts and omissions of Recovery Innovations and the individual defendants inﬂicted severe
emotional distress and injuries due to involuntary
medication on Mr. Rawson from which he continues to
suffer today.
4.66 Recovery Innovations and the individual
defendants engaged in unfair and deceptive acts or
practices in the conduct of trade or commerce through
the detention and forced medical treatment of Mr.
Rawson. These actions harmed Mr. Rawson, and injured the public interest.
V.

LEGAL CLAIMS

5.1 State Action: The facts described above constitute violations of several the rights guaranteed to

App. 160
Mr. Rawson by the United States Constitution. These
violations are actionable under 42 U.S.C. § 1983 because the Defendants acted under color of state law.
Recovery Innovations and the individual defendants
acted under color of state law by so closely collaborating with state actors in the detention, evaluation,
treatment, and petition to continue the detention of
Mr. Rawson as to make their actions indistinguishable
from the State’s, and by serving the public functions of
conﬁning involuntarily committed individuals and
providing them mental health evaluation and treatment services.
5.2 Fourth Amendment: The facts described above
constitute violations of Mr. Rawson’s Fourth Amendment rights by Recovery Innovations, Ms. French, Ms.
Clingenpeel, and Dr. Halarnakar.
5.3 Substantive Due Process: The facts described
above constitute violations of Mr. Rawson’s Substantive Due Process rights under the Fourteenth Amendment by the Defendants.
5.4 Procedural Due Process: The facts described
above constitute violations of Mr. Rawson’s Procedural
Due Process rights under the Fourteenth Amendment
by the Defendants.
5.5 Americans with Disabilities Act: The facts
described above constitute violations of Mr. Rawson’s
rights under Title II of the American’s with Disabilities
Act, 42 U.S.C. § 12132, by the Defendants.

App. 161
5.6 Outrage: The facts and the Defendants’ conduct committed with gross negligence, reckless, bad
faith, or intent, described above give rise to a claim of
Outrage under the common law of the State of Washington against by the Defendants.
5.7 False Imprisonment: The facts and the Defendants’ conduct committed with gross negligence,
recklessness, bad faith, or intent, described above give
rise to a claim of False Imprisonment under the common law of the State of Washington against by the Defendants.
5.8 Medical Malpractice: The facts and the Defendants’ conduct committed with gross negligence,
recklessness, bad faith, or intent, described above give
rise to a claim of medical malpractice under the law of
the State of Washington, RCW 7.70 et seq.
5.9 Washington Law Against Discrimination: The
facts and the Defendants’ conduct committed with
gross negligence, recklessness, bad faith, or intent, described above constitute violations of Mr. Rawson’s
rights under the Washington Law Against Discrimination, RCW 49.60 et seq.
5.10 Washington Consumer Protection Act: The
facts and the Defendants’ conduct committed with
gross negligence, recklessness, bad faith, or intent, described above constitute violations of Mr. Rawson’s
rights under the Washington Consumer Protection Act,
RCW 19.86 et seq., in a manner that is injurious to the
public interest.

App. 162
5.11 Damages for Excessive Detention: The
facts and the Defendants’ conduct committed
knowingly, wilfully, or through gross negligence
described above constitute violations of Mr.
Rawson’s rights under RCW 71.05.510.
VI.

REQUEST FOR RELIEF

WHEREFORE Plaintiff requests that the Court
enter judgment and other relief against Defendants
awarding Plaintiff:
6.1 A trial by jury;
6.2 General and special damages, in an amount
to be proven at trial;
6.3 Declaratory and injunctive relief;
6.4 Punitive damages as available under federal
law;
6.5 His reasonable attorney’s fees and costs of
litigation;
6.6 The right to conﬁrm the pleadings to the evidence presented at trial;
6.7 Post judgment interest on any amounts recovered from the time of the judgment to the time of
satisfaction of judgment; and
6.8 Such other and further relief as the Court
deems just and equitable.

App. 163
DATED this 13 day of April, 2018.
MacDONALD HOAGUE & BAYLESS
By: /s/ Jesse Wing
Jesse Wing, WSBA #27751
JesseW@MHB.com
Attorneys for Plaintiff
MacDONALD HOAGUE & BAYLESS
By: /s/ Sam Kramer
Sam Kramer, WSBA #50132
Samk@mhb.com
Attorneys for Plaintiff
[Certificate Of Service Omitted]

